<html>
<title> - PROPOSED COMPREHENSIVE CONSERVATION PLAN (CCP) FOR THE CHINCOTEAGUE NATIONAL WILDLIFE REFUGE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                        PROPOSED COMPREHENSIVE 
                        CONSERVATION PLAN (CCP) 
                         FOR THE CHINCOTEAGUE 
                       NATIONAL WILDLIFE REFUGE 

=======================================================================

                           OVERSIGHT HEARING

                               before the

                  SUBCOMMITTEE ON FISHERIES, WILDLIFE,
                       OCEANS AND INSULAR AFFAIRS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                       Friday, February 17, 2012

                               __________

                           Serial No. 112-95

                               __________

       Printed for the use of the Committee on Natural Resources

         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

72-939 PDF                       WASHINGTON : 2013 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
             EDWARD J. MARKEY, MA, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      John P. Sarbanes, MD
Scott R. Tipton, CO                  Betty Sutton, OH
Paul A. Gosar, AZ                    Niki Tsongas, MA
Raul R. Labrador, ID                 Pedro R. Pierluisi, PR
Kristi L. Noem, SD                   John Garamendi, CA
Steve Southerland II, FL             Colleen W. Hanabusa, HI
Bill Flores, TX                      Paul Tonko, NY
Andy Harris, MD
Jeffrey M. Landry, LA
Jon Runyan, NJ
Bill Johnson, OH
Mark Amodei, NV

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
                Jeffrey Duncan, Democrat Staff Director
                 David Watkins, Democrat Chief Counsel
                                 ------                                

              SUBCOMMITTEE ON FISHERIES, WILDLIFE, OCEANS
                          AND INSULAR AFFAIRS

                       JOHN FLEMING, LA, Chairman
     GREGORIO KILILI CAMACHO SABLAN, CNMI, Ranking Democrat Member

Don Young, AK                        Eni F.H. Faleomavaega, AS
Robert J. Wittman, VA                Frank Pallone, Jr., NJ
Jeff Duncan, SC                      Madeleine Z. Bordallo, GU
Steve Southerland, II, FL            Pedro R. Pierluisi, PR
Bill Flores, TX                      Colleen W. Hanabusa, HI
Andy Harris, MD                      Vacancy
Jeffrey M. Landry, LA                Edward J. Markey, MA, ex officio
Jon Runyan, NJ
Doc Hastings, WA, ex officio



                                  ------                                
                                 CONTENTS
                                  ------                              
                                                                   Page

Hearing held on Friday, February 17, 2012........................     1

Statement of Members:
    Fleming, Hon. John, a Representative in Congress from the 
      State of Louisiana.........................................     1
        Prepared statement of....................................     2
    Hanabusa, Hon. Colleen W., a Representative in Congress from 
      the State of Hawaii........................................     3
        Prepared statement of....................................     4

Statement of Witnesses:
    Chesson, S. Scott, Owner, Best Western Plus, Chincoteague 
      Island, Virginia...........................................    24
        Prepared statement of....................................    26
    Harris, Hon. Andy, a Representative in Congress from the 
      State of Maryland, Oral statement of.......................     5
    Payne, Nancy, Owner, Clouds Gallery, Chincoteague Island, 
      Virginia...................................................    20
        Prepared statement of....................................    22
    Rigell, Hon. E. Scott, a Representative in Congress from the 
      State of Virginia..........................................     6
        Prepared statement of....................................     8
        Letter to Dan Ashe, Director, U.S. Fish and Wildlife 
          Service, submitted for the record......................    48
    Tarr, Hon. Jack, Mayor, Town of Chincoteague, Virginia.......    14
        Prepared statement of....................................    16
    Thornton, Hon. Wanda J., Member, Accomack County Board of 
      Supervisors................................................    17
        Prepared statement of....................................    19
    Weber, Wendi, Regional Director, Fish and Wildlife Service, 
      U.S. Department of the Interior............................     9
        Prepared statement of....................................    11

Additional materials supplied:
    House Joint Resolution No. 226, 112th Congress...............    50
    Lewis, Ted, President, Chincoteague Chamber of Commerce, 
      Chincoteague Island, Virginia, Letter to The Honorable Jack 
      Tarr, Mayor, Town of Chincoteague, submitted for the record    51
    List of documents retained in the Committee's official files.    52
    Resolution of Accomack County Board of Supervisors approved 
      February 15, 2012, submitted for the record................    52
    Resolution of Town of Chincoteague, Virginia, approved 
      December 5, 2011, submitted for the record.................    53
                                     



OVERSIGHT HEARING ON THE PROPOSED COMPREHENSIVE CONSERVATION PLAN (CCP) 
             FOR THE CHINCOTEAGUE NATIONAL WILDLIFE REFUGE.

                              ----------                              


                       Friday, February 17, 2012

                     U.S. House of Representatives

    Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to notice, at 9:30 a.m., in 
Room 1324, Longworth House Office Building, Hon. John Fleming 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Fleming, Wittman, Harris; and 
Hanabusa.
    Also Present: Representative Rigell.
    Dr. Fleming. The Subcommittee will come to order.
    The Chairman notes the presence of a quorum.

    STATEMENT OF THE HON. JOHN FLEMING, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Dr. Fleming. Good morning. Today the Subcommittee will 
conduct an oversight hearing on the proposed Comprehensive 
Conservation Plan, or CCP, for the Chincoteague National 
Wildlife Refuge in Virginia. During the past year, we have 
heard repeatedly from the Fish and Wildlife Service that the 
reason they recommend no funding for the refuge revenue-sharing 
program is because refuges are economic engines for the local 
economies.
    In this particular case, there is no question that the 
Chincoteague National Wildlife Refuge and the 1.4 million 
people who visit it each year are critical to the economic 
vitality to the Town of Chincoteague. Each summer, families 
travel to Chincoteague to enjoy its beautiful beaches and to 
gaze upon some 125 descendants of Spanish mustangs which have 
lived on the island for some 400 years.
    These are ponies that were memorialized in Marguerite 
Henry's 1947 book, ``Misty of Chincoteague.'' It is therefore 
not surprising that the congressman who represents this 
community, the Town Council of Chincoteague, the local Chamber 
of Commerce, and I am told the overwhelming majority of the 
residents were aghast to learn that the Fish and Wildlife 
Service is considering management alternatives, which they 
believe will have a devastating economic impact on their town.
    Among the proposals being considered is closing the 
existing recreational beach, building new parking facilities, 
and establishing a shuttle service from a remote location miles 
from the existing beach, and reducing the size of the pony 
herd.
    From my perspective, what is most disturbing is that 
despite the fact that the CCP will not be completed until at 
least 2013, the Service has already started to implement their 
changes. They have telegraphed their intentions by seeking up 
to $7 million in Federal grants from the Paul Sarbanes Transit 
in the Parks Program, by indicating their desire to reduce the 
size of the pony herd, and by signing a contract to purchase 
the Maddox family campground.
    The fact that the Fish and Wildlife Service is moving 
forward with one option while at the same time telling the 
public that they are reviewing all options is certainly at 
least contrary to the spirit of the National Environmental 
Policy Act.
    This process lacks transparency and indicates an 
unwillingness to work with either small businesses or the local 
Chincoteague community, and begs the question as to when this 
Administration will stop placing the welfare of its bureaucracy 
over the welfare of the citizens.
    At a minimum, the public must be given an opportunity to 
comment on the proposed draft environmental impact statement 
before and not after the agency implements its preference. To 
do otherwise is simply unacceptable and will prompt further 
congressional inquiries.
    I look forward to hearing from each of our witnesses. I 
want to now recognize the Ranking Minority Member of the 
Subcommittee, the gentlelady from the Commonwealth--I am 
sorry----
    Ms. Hanabusa. We are a state.
    Dr. Fleming [continuing]. From Hawaii. We were expecting 
Mr. Sablan, who is from the CNMI, and so I am having to go off 
script here because Ms. Hanabusa from Hawaii, which is, by the 
way, a state, if anyone hasn't heard----
    [Laughter.]
    Dr. Fleming [continuing]. Will be sitting in his place.
    So with that, I will yield to the gentlelady from Hawaii.
    [The prepared statement of Dr. Fleming follows:]

          Statement of The Honorable John Fleming, Chairman, 
    Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs

    Good morning. Today, the Subcommittee will conduct an oversight 
hearing on the proposed Comprehensive Conservation Plan or CCP for the 
Chincoteague National Wildlife Refuge in Virginia.
    During the past year, we have heard repeatedly from the Fish and 
Wildlife Service that the reason they recommend no funding for the 
Refuge Revenue Sharing Program is because refuges are economic engines 
for their local communities.
    In this particular case, there is no question that the Chincoteague 
National Wildlife Refuge and the 1.4 million people who visit it each 
year are critical to the economic vitality of the Town of Chincoteague. 
Each summer, families travel to Chincoteague to enjoy its beautiful 
beaches and to gaze upon some 125 descendants of Spanish mustangs which 
have lived on the Island for some 400 years. These are ponies that were 
memorialized in Marguerite Henry's 1947 book ``Misty of Chincoteague''.
    It is, therefore, not surprising that the Congressman who 
represents this community, the Town Council of Chincoteague, the local 
Chamber of Commerce and I am told the overwhelming majority of 
residents, were aghast to learn that the Fish and Wildlife Service is 
considering management alternatives which they believe will have a 
devastating economic impact on their town.
    Among the proposals being considered is closing the existing 
recreational beach, building new parking facilities and establishing a 
shuttle service from a remote location miles from the existing beach, 
and reducing the size of the pony herd.
    From my perspective, what is most disturbing, is that despite the 
fact that the CCP will not be completed until at least 2013, the 
Service has already started to implement their changes. They have 
telegraphed their intentions by seeking up to $7 million in federal 
grants from the Paul Sarbanes Transit in the Parks Program, by 
indicating their desire to reduce the size of the pony herd, and by 
signing a contract to purchase the Maddox Family Campground.
    The fact that the Fish and Wildlife Service is moving forward with 
one option, while at the same time telling the public that they are 
reviewing all options, is certainly contrary to at least the spirit of 
the National Environmental Policy Act. This process lacks transparency 
and indicates an unwillingness to work with either small businesses or 
the local Chincoteague community and begs the question as to when this 
administration will stop placing the welfare of its bureaucracy over 
the welfare of the citizenry. At a minimum the public must be given an 
opportunity to comment on the proposed Draft Environment Impact 
Statement before and not after the agency implements its preference. To 
do otherwise, is simply unacceptable and will prompt further 
Congressional inquiries.
    I look forward to hearing from each of our witnesses and want to 
now recognize the Ranking Minority Member of the Subcommittee, the 
gentleman from the Commonwealth of the Northern Mariana Islands, 
Congressman Sablan.
                                 ______
                                 

  STATEMENT OF THE HON. COLLEEN HANABUSA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF HAWAII

    Ms. Hanabusa. Thank you, Chairman Fleming. Some people 
actually believe we are probably the best state, especially us.
    As mandated by the National Wildlife Refuge System 
Improvement Act of 1997, the Chincoteague National Wildlife 
Refuge of Assateague Island is managed for the protection and 
conservation of wildlife. This includes the endangered Delmarva 
fox squirrel and threatened species including the Atlantic 
Coast piping plover, the Atlantic loggerhead turtle, and the 
plant the seabeach amaranth.
    The pristine beauty of this natural barrier island is 
unparalleled, making it one of the Nation's most visited 
refuges, with 1.4 million visitors a year. People travel to 
Chincoteague for its recreational beach, the wild horse 
population, and it is a major stopover for migratory birds. 
During the summer tourist season, the refuge brings in about 
$42 million to the Town itself.
    The refuge is currently drafting a new Comprehensive 
Conservation Plan, or as the Chairman said, the CCP, to replace 
the existing planning document, the 1992 Master Plan. Fish and 
Wildlife Service has completed initial scoping of stakeholder 
concerns and has developed three management alternatives.
    Of great concern today is one aspect common to all 
management alternatives, the addition of a satellite parking 
lot with shuttle bus to supplement the amount of parking 
available at the recreational beach.
    Assateague is a barrier island shaped by dynamic coastal 
processes, causing natural beach erosion during storms. Storms 
regularly alter recreational beach and destroy the parking lot 
used by the visitors. Since 1938, Chincoteague has experienced 
over a foot of sea level rise, and the parking lot is 
increasingly vulnerable to increasing storm frequency and 
intensity.
    Recognizing these vulnerabilities, the 1992 Master Plan 
included provisions to supplement the beach parking with a 
satellite location on Chincoteague Island and shuttle transit 
to transport visitors to the beach. Restoring and maintaining 
this beach parking in the current location is expensive and 
risky.
    The Fish and Wildlife Service has been able to rebuild the 
lot with the help of Federal funding from the Department of 
Transportation's Emergency Funding Relief for Federally Owned 
Roads Program. They estimate that they have spent nearly $2.4 
million repairing parking lots on this site in the past four 
years alone. Destruction as a result of Hurricane Irene this 
last summer cost $862,000, and the beach was closed to cars for 
the last week of the summer tourist season.
    There is concern that the refuge won't qualify for 
emergency funding year after year. The Service, working under 
the authority of the 1992 Master Plan, applied for and was 
awarded a $1.5 million grant to purchase from willing sellers 
for the satellite parking lot. This lot would only supplement 
the beach parking outlined in all CCP options.
    This Committee has oversight of the Fish and Wildlife 
Service, and during these financially austere times, it seems 
to me to be responsible governing to stop pouring taxpayer 
dollars into a parking lot that will wash away with more 
frequency, and instead invest in a long-term solution.
    Refuges generate $150 in local economic activity for every 
dollar it costs to run a refuge. Having expanded parking 
capacity will only increase the value of the refuge to the 
local economy.
    I want to thank the witnesses, and look forward to hearing 
from them. Thank you, Mr. Chair.
    [The prepared statement of Ms. Hanabusa follows:]

  Statement of The Honorable Colleen Hanabusa, Acting Ranking Member, 
    Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs

    Thank you, Chairman Fleming.
    As mandated by the National Wildlife Refuge System Improvement Act 
of 1997, Chincoteague National Wildlife Refuge on Assateague Island is 
managed for the protection and conservation of wildlife. This includes 
the endangered Delmarva fox squirrel, and threatened species including 
the Atlantic Coast piping plover, Atlantic loggerhead turtle, and the 
plant, seabeach amaranth. The pristine beauty of this natural barrier 
island is unparalleled making it one of the nation's most visited 
refuges with 1.4 million visits a year. People travel to Chincoteague 
for its recreational beach, the wild horse population and as a major 
stop-over for migratory birds. During the summer tourist season, the 
refuge brings in $42 million dollars to the Town of Chincoteague.
    The refuge is currently drafting a new Comprehensive Conservation 
Plan to replace the current planning document, the 1992 Master Plan. 
The Fish and Wildlife Service has completed initial scoping of 
stakeholder concerns and has developed 3 management alternatives. Of 
great concern today is one aspect common to all management 
alternatives: the addition of a satellite parking lot with shuttle bus 
to supplement the amount of parking available at the recreational 
beach.
    Assateague is a barrier island shaped by dynamic coastal processes 
causing natural beach erosion during storms. Storms regularly alter the 
recreational beach and destroy the parking lot used by visitors. Since 
1938, Chincoteague has experienced over a foot of sea level rise and 
the parking lot is increasingly vulnerable to increasing storm 
frequency and intensity. Recognizing these vulnerabilities, the 1992 
Master Plan included provisions to supplement the beach parking with a 
satellite location on Chincoteague Island and shuttle transit to 
transport visitors to the beach.
    Restoring and maintaining this beach parking in the current 
location is expensive and risky. The Fish and Wildlife Service has been 
able to rebuild the lot with the help of federal funding from the 
Department of Transportation's Emergency Funding Relief for Federally 
Owned Roads program. They estimate that they have spent nearly 2.4 
million dollars repairing parking lots on this site in the past 4 
years. Destruction as a result of Hurricane Irene alone this last 
summer cost $862,000 and the beach was closed to cars for the last week 
of the summer tourist season. There is concern that the refuge won't 
qualify for emergency funding year after year.
    The Service, working under the authority of the 1992 Master Plan, 
applied for and was awarded a $1.5 million dollar grant to purchase 
land from willing sellers for the satellite parking lot. This lot would 
only supplement the beach parking outlined in all CCP options. This 
Committee has oversight over the Fish and Wildlife Service and during 
these financially austere times, it seems to me to be responsible 
governing to stop pouring tax payer dollars into a parking lot that 
will wash away with more frequency and instead invest in a long term 
solution. Refuges generate $150 in local economic activity for every $1 
it costs to run refuges. Having expanded parking capacity will only 
increase the value of the refuge to the local economy.
    I thank the witnesses and look forward to hearing from our 
witnesses.
                                 ______
                                 
    Dr. Fleming. I thank the gentlelady. I will make an 
editorial comment. I heard that figure $800,000. We actually 
looked into that, and what we came up with on Nor'easter Ida 
was $34,038.75, and for Hurricane Irene, $69,033.80.
    So it looks like a tremendous difference from what we 
actually find from the records and what has been reported. So 
maybe that is something that our witnesses will be able to 
resolve for us.
    Before I go forward, I want to mention that we will 
probably get called for votes at 10:00. And what we are going 
to try to do is try to get everyone's testimony in, and 
certainly comments from other Members this morning, try to 
squeeze that in before we leave for that vote. Then we will 
come right back--I think it is only one vote--and then we will 
go into the question-and-answer period.
    So that is the plan, but as you know, things don't go 
according to plan often around here. But at least we have a 
plan.
    Based on the traditions of this Subcommittee, I would now 
like to recognize the distinguished gentleman from the 1st 
District of Maryland, Congressman Andy Harris, a fellow 
physician, who represents the Maryland side of the refuge, for 
any opening statement he would like to make.

STATEMENT OF THE HON. ANDY HARRIS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MARYLAND

    Dr. Harris. Thank you very much, Mr. Chairman, and thank 
you for holding the hearing. Of course, Maryland's 1st 
Congressional District does border on the north side, and we of 
course have Assateague, the companion park to Chincoteague.
    Mr. Chairman, you know, we are having the same problem in 
Assateague as well--a plan that seeks to remove the parking 
that is available near the beach. I mean, it is clear that the 
goal of the Federal Government that controls these tourist 
areas is, in the long term, to make sure that no one can park 
near where they are going to enjoy the beach.
    That is a real shame because it is a driver for millions 
and millions of dollars of tourism revenue, as I think we are 
going to hear from the panel today. There are 1.5 million 
visitors, is the testimony, to Chincoteague. And, you know, 
let's say the figures are right and it costs between $200,000 
and $700,000 to replace a parking lot after a major event. That 
would be less than 50 cents per visitor.
    So I don't understand this. You are going to spend $7.5 
million acquiring a piece of property. You are going to have to 
create a shuttle system. You are going to have to inconvenience 
users to use a shuttle system. It begs the obvious question: 
Why don't you just give the visitors the choice? Maybe we ought 
to poll the visitors, ask them, would you rather pay 50 cents 
more and park near the beach or be inconvenienced by having 
your family take a shuttle--develop a shuttle system, spend $7-
1/2 million to buy a piece of property?
    And then on top of that, what is also of concern to me is 
the plans that have been proposed that would require thinning 
the horse herd if you go to that plan. And some of the plans, 
Mr. Chairman, honestly, to thin the horse herd involve just 
euthanizing the horses.
    As the testimony, I think, we will have is, these horses 
have been around for centuries. And now--because, again, the 
Federal Government is going to decide how people are going to 
enjoy the beach, they are also going to decide how these horses 
are going to live into the future.
    Mr. Chairman, it seems like, again, there is this 
overwhelming desire to pretend that we are going to return the 
United States to the condition it was 300 years ago. Those just 
aren't the facts. People want to go to the beach. People from 
my district want to drive a little south, I am disappointed to 
say sometimes. They want to go into Virginia and they want to 
enjoy the beach down there.
    And what they are going to have to do now is it is going to 
make it much more difficult for American citizens, taxpaying 
citizens, to enjoy the lands that are owned and operated by the 
U.S. Government. It is exactly the reverse of what--these lands 
are for the enjoyment of Americans, not for some plan that 
says, we are going to restore it to its native state.
    We are going to pretend that people don't want to visit 
there. And worse than that, Mr. Chairman, when we should be 
encouraging industry, encouraging tourism, encouraging economic 
activity, it is pretty clear that the plans being proposed both 
to the south in Chincoteague as well as some of the plans to 
the north in Assateague would in fact do the opposite.
    So Mr. Chairman, I want to thank you very, very much for 
holding this hearing. As you know we have discussed, I have 
another hearing I will have to attend. But I look forward to 
reviewing the record. And again, I thank you for holding a 
hearing on this very important subject.
    Dr. Fleming. The gentleman yields back, and I thank the 
gentleman for his comments.
    I now ask unanimous consent that the gentleman from 
Virginia, Congressman Scott Rigell, who requested this 
oversight hearing, be allowed to sit with the Subcommittee and 
fully participate in our deliberations.
    [No response.]
    Dr. Fleming. Hearing no objection, so ordered. Congressman, 
at the appropriate time, I will recognize you to introduce the 
Mayor and Supervisor for the Town of Chincoteague.
    Thank you--I am sorry. We now need to give you an 
opportunity if you would like to make comments.
    Ms. Hanabusa. Thank you, Mr. Chairman. And would this also 
be the right time to introduce and welcome our guests?
    Dr. Fleming. It is up to you.

    STATEMENT OF THE HON. SCOTT RIGELL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF VIRGINIA

    Mr. Rigell. Mr. Chairman, thank you so much. And I am just 
delighted that my friend and colleague, Dr. Harris, has such 
firsthand knowledge of this matter, and that my neighbor is 
right here standing with us in this.
    And I appreciate you holding this important hearing today, 
and for graciously inviting me to be able to be here. It really 
is an honor and privilege to represent and serve the 2nd 
District of Virginia, which includes the beautiful and vibrant 
Town of Chincoteague.
    This is a good time to welcome and introduce our guests 
here this morning.
    Supervisor Wanda Thornton has called Chincoteague home 
since 1963. She joined the Chincoteague Town Council in 1990, 
and was elected to the Board of Supervisors there in 1996. And 
she is a small business owner, which I appreciate. She is the 
owner and operator of Pine Grove Campground there in 
Chincoteague.
    And the good Mayor Jack Tarr is here. He has been the Mayor 
of Chincoteague since 1999, and previously served five terms on 
the Town Council. He was born and raised on Chincoteague, and 
in addition to serving as Mayor, he too is a local small 
business owner, has a local contracting business.
    And Mr. Chesson--good morning, sir. Welcome to you. He is 
also another business owner, been a resident of the Town 
since--let's see, 23 years, and he owns and manages the Best 
Western Plus there in Chincoteague, directly related, of 
course, and benefitting from the tourism that comes in. And I 
think your firsthand knowledge of the sense of the business 
community there will be particularly enlightening to us this 
morning.
    I also want to welcome Ms. Payne. Although I don't have 
your bio, you are a wonderful part of our community, and I 
appreciate you being here very much.
    You know, I respect the valuable service provided by the 
National Wildlife Refuge system, and it is appropriate that we 
set aside our land, some of our land, not only for our benefit 
but for the benefit of our children and our grandchildren.
    I had the great privilege of growing up hunting on the 
Merritt Island National Refuge; my dad worked out at the Cape, 
and so many mornings I have good memories of that, duck hunting 
with him there. And so I fully appreciate why we have the 
National Fish and Wildlife Service and the value that it brings 
to all Americans.
    Now, that said, though, the direction that we are headed 
here, it is so clear to me that this is not a wise policy. This 
train has essentially pulled out of the station. And I have 
spent quite a bit of time with Lou Hinds and walked through 
this on the beach. And it is, in my view, a foregone 
conclusion, and that is one of the principal objections that I 
have to this plan. It is like it has been predetermined, and 
the train has already pulled out on where it is going.
    I object to it on really four principal reasons:
    Jobs, the adverse impact it will have on jobs, that is 
indisputable, in my view;
    The cost--we are buying something we do not need with money 
we do not have; this is part of what is contributing to our 
fiscal crisis in America;
    It is a flawed process. I believe it violates the NEPA 
process. That is a strong statement to make, but I believe the 
evidence reflects that;
    And finally, and I would say most importantly, I believe it 
thwarts, disregards, the wisdom and the will of the local 
people. It is a classic example of an overreaching, 
paternalistic Federal Government who, for whatever motivation, 
believes it understands and knows what is best for the folks 
who have been there generation after generation.
    So I oppose it. I have made this very clear. And I know we 
are reflecting the wisdom and the will of the local community; 
that has been made clear to me by the Mayor, the Supervisors 
there, businessmen and women I have spoken with, and also the 
Virginia House of Delegates. Lynwood Lewis, one of our 
delegates, who represents that wonderful part of the 
Commonwealth, made it clear in his letter to me that he 
supports what I am doing and he hopes that we are successful.
    So I do look forward to hearing the testimony of our 
witnesses today. I thank you all for being here. And Mr. 
Chairman, thank you again. And Director Weber, thank you for 
being here. I look forward to hearing from you.
    I yield back.
    [The prepared statement of Mr. Rigell follows:]

     Statement of The Honorable Scott Rigell, Member of Congress, 
                 Virginia's 2nd Congressional District

    Chairman Fleming, members of the committee, thank you for holding 
this important oversight hearing today and for graciously inviting me 
to participate. It is an honor and privilege to represent the 2nd 
District of Virginia which includes the historic town of Chincoteague.
    I would like to begin by welcoming and introducing our guests from 
Chincoteague.
    Supervisor Wanda Thornton has called Chincoteague home since 1963. 
She joined the Chincoteague Town Council in 1990 and was elected to the 
Accomack County Board of Supervisors in 1996. She is the owner and 
operator of Pine Grove Campground in Chincoteague.
    Mayor Jack Tarr has been Mayor of the Town of Chincoteague since 
1999 and previously served five years on the Town Council. Mayor Tarr 
was born and raised on Chincoteague. In addition to serving as Mayor, 
he owns and operates a local contracting business.
    Mr. Scott Chesson has been a business owner in Chincoteague for 23 
years. He owns and manages the Best Western Plus in Chincoteague. His 
knowledge of the sense of the local business community will be 
particularly relevant to the subject at hand today.
    I respect the valuable service provided by the National Wildlife 
Refuge system. By setting aside lands for wildlife and providing public 
access and education, we preserve America's outdoor heritage for our 
own benefit and for that of future generations.
    The Chincoteague National Wildlife Refuge is one of the most 
visited sites in the refuge system. Visitors come from across the 
country to see the wild ponies and enjoy the beach on Assateague 
Island.
    The town of Chincoteague has a unique relationship with the Refuge. 
For more than a generation, the town's economy has become dependent on 
beach driven tourism. The beach hosts more than 5,000 people on peak 
days. Any change to the refuge management plan which diminishes beach 
access will have a detrimental effect on the local economy.
    I am very disappointed and troubled by the Fish and Wildlife 
Service's approach to the conservation planning process for 
Chincoteague for four principle reasons.
        1.  Jobs
        2.  Cost
        3.  The Flawed Process
    I have been assured numerous times that the Refuge's intention is 
not to replace the beach parking but to supplement it and provide 
emergency backup parking for those occasional times when the parking 
lot sustains storm damage.
    However, it is clear to me that the Refuge is pursuing an agenda to 
replace, rather than supplement the parking lot. In their application 
for a $3 million dollar grant to purchase an off-site parking location, 
refuge officials specifically described the purpose of the funding to 
``develop a park-and-ride facility to keep vehicles away from the 
vulnerable beachfront.''
        4.  Complete disregard for the wisdom and will of the local 
        people.
    The town, the county, and the Virginia House of Delegates have all 
adopted resolutions disapproving of any effort to expand the boundaries 
of the Refuge within the town to establish a transit system. It flies 
in the face of common sense that the Refuge would continue to pursue a 
plan that has drawn such deep objections.
    Moving this project forward ahead of the CCP undermines the 
integrity of the public process. The refuge is sending a clear signal 
that the public process is nothing more than a pro forma exercise with 
a foregone conclusion.
    This is a classic example of an over reaching paternalistic federal 
government imposing its will without regard for the needs, desires, or 
economic well being of the people.
    It is incumbent on us to ensure that the Fish and Wildlife service 
take no action to undermine the local economy or the people it serves.
    Thank you, I yield back the balance of my time.
                                 ______
                                 
    Dr. Fleming. The gentleman yields back.
    Now we get to the fun part. We will now hear from our 
witnesses. Like all witnesses, your written testimony will 
appear in full in the hearing record, so I ask that you keep 
your oral statements to five minutes--and we want to be as 
strict as possible because, as I said, we are trying to squeeze 
in the witness portion of this before we have to go for our 
first series of votes--which is as outlined in the letter that 
we sent to you under Committee Rule 4(a).
    Our microphones are not automatic, so please press the 
button. As you see, you have five minutes to speak. It will be 
on the green light for the first four minutes; then it will 
turn yellow. When it turns red, please wrap up immediately, and 
that way we can make sure that we can get on with the meeting 
and get completed at a proper time.
    I would now like to welcome today's witnesses. We have 
already had some introductions. We have Ms. Wendi Weber, who is 
the Northeast Regional Director for the U.S. Fish and Wildlife 
Service; The Honorable Jack Tarr, Mayor of the Town of 
Chincoteague; The Honorable Wanda Thornton, Member, the 
Accomack County Board of Supervisors; Ms. Nancy Payne, owner of 
the Clouds Gallery; and Scott Chesson, who will speak on behalf 
of the business community in Chincoteague.
    Ms. Weber, you are now recognized for five minutes.

       STATEMENT OF MS. WENDI WEBER, REGIONAL DIRECTOR, 
                 U.S. FISH AND WILDLIFE SERVICE

    Ms. Weber. Thank you. Good morning, Chairman Fleming and 
Congressman Rigell and Members of the Subcommittee. I am Wendi 
Weber, the Northeast Regional Director for the U.S. Fish and 
Wildlife Service. Thank you for the opportunity to testify on 
Chincoteague National Wildlife Refuge and the development of 
the Refuge's Comprehensive Conservation Plan, or the CCP.
    My written statement provides details on the public process 
and the range of potential management alternatives. In the 
interest of time, my remarks today will focus on the issue of 
offsite parking.
    We are proud of Chincoteague Refuge and the value it 
provides to the local community. The Refuge was established in 
1943 for the protection and management of migratory birds, 
particularly migrating and wintering waterfowl. With its 
undeveloped barrier beaches, wetlands, and maritime forest, 
Chincoteague Refuge supports a diversity of wildlife, including 
endangered species such as loggerhead turtles.
    Chincoteague is one of the country's most visited Refuges, 
with nearly 1-1/2 million visits each year. This influx of 
people is enormously important to the local economy. Through a 
memorandum of understanding, the National Park Service manages 
public uses along a one-mile portion of the barrier beach at 
Toms Cove. The Park Service maintains a visitor station, 
parking lots, and a swimming beach.
    Like all coastal barrier islands, the sands at Chincoteague 
are unstable and are shaped by ocean tides and storms. The 
current recreational beach is located in one of the most 
dynamic parts of the island. It is under constant threat of 
damage from flooding and erosion. Natural forces have 
eliminated the manmade dune system, and have repeatedly ravaged 
beach parking lots.
    On the screen are photographs that show the challenges we 
face. The parking lots shown in the first photo, from 1994, 
were repeatedly overwhelmed by strong storms in the 1990s. 
Eventually, these lots had to be relocated.
    The next photo, from 2011, shows the location of the 
current shoreline. As you can see, the parking areas from the 
1990s are now under water. This photo also shows the location 
of the parking lots today. The current lots also have been 
repeatedly destroyed and repaired. In the photo, you can see 
that they have been recently overwashed by storm surge.
    Continuing to repair these parking lots raises important 
questions. Is this a responsible use of taxpayer dollars? Is 
there a better way to provide recreational beach opportunities 
to the public that is fiscally sound and provides longer-term 
viability? These are key questions that the Service has posed 
to the public and will address in the CCP. The CCP will 
describe desired future conditions of the Refuge and provide 
long-range guidance and management direction.
    There is no proposed CCP yet, but in August of 2011 we 
shared four potential alternatives with the public that could 
become part of the draft CCP. In December we eliminated one 
alternative in response to community input.
    There are common elements to the three potential 
alternatives. Each includes a recreational beach with adjacent 
beach parking. Each includes supplemental offsite parking for 
busy days or for emergency backup when storm events wash out 
the beach parking. And each includes an alternative 
transportation system to service the offsite parking.
    We expect to release a draft CCP to the public for comment 
this year. Offsite parking is an insurance policy for Refuge 
visitors. On busy summer days, the current lots fill up 
quickly. Offsite parking would provide a welcomed option for 
people who don't want to wait to park or would rather take a 
shuttle and get on the beach, and if the beach parking lot is 
destroyed by storm surge, as happened before Labor Day last 
year, offsite parking will enable the beaches to stay open to 
visitors while repairs are made. We are pursuing supplemental 
parking to help ensure beach access, which is so critical to 
the local economy.
    The Service has long sought to acquire land suitable for 
offsite parking. Suitable land only recently became available. 
Coincidental to the CCP process, the Service applied for a 
grant to help purchase the land, and continues to pursue other 
funding sources to complete the purchase.
    In our continued discussions with the community, I believe 
it will become more apparent that the Service and the local 
community share the same values, and that we must work together 
closely to ensure the Refuge maintains its ability to conserve 
wildlife and provide outstanding recreational opportunities in 
the face of sea level rise and chronic storm damage.
    Mr. Chairman, thank you for the opportunity to testify, and 
I am happy to address any questions that you may have.
    [The prepared statement of Ms. Weber follows:]

        Statement of Wendi Weber, Northeast Regional Director, 
    U.S. Fish and Wildlife Service, U.S. Department of the Interior

    Good morning Chairman Fleming and Members of the Subcommittee, I am 
Wendi Weber, Northeast Regional Director for the U.S. Fish and Wildlife 
Service (Service). Thank you for the opportunity to testify about one 
of the most popular units of the National Wildlife Refuge System 
(Refuge System) - Chincoteague National Wildlife Refuge, located on 
Assateague Island on the coast of Virginia.
    My statement below describes the Service's developing comprehensive 
conservation plan for the refuge, and how we are approaching future 
management given the effects of environmental change to this very 
dynamic barrier island ecosystem. Our goal is to manage the refuge in a 
way that ensures: (1) its conservation purpose is achieved and 
maintained over the long term; (2) the public continues to have 
reasonable, appropriate, and compatible access; and (3) we make 
responsible decisions about how we utilize taxpayer dollars. In making 
our management decisions we also recognize the important role of the 
refuge for local communities.
Background
    Chincoteague National Wildlife Refuge was established in 1943 for 
the protection and management of migratory birds, especially migrating 
and wintering waterfowl. Wildlife abounds at Chincoteague. Its barrier 
beaches, wetlands, and maritime forests provide habitat for more than 
320 different species. The refuge is considered a birding hot spot by 
the Audubon Society and has been designated a globally important bird 
area by the American Bird Conservancy. The refuge supports Delmarva fox 
squirrel, piping plover, Atlantic loggerhead sea turtles, and seabeach 
amaranth, all of which are protected under the Endangered Species Act.
    Chincoteague is one of the most visited national wildlife refuges 
in the nation. It draws as many as 1.4 million visitors each year, and 
this influx of people is enormously important to the local tourism 
economy. The refuge sits adjacent to Assateague Island National 
Seashore, managed by the National Parks Service (NPS). To help 
accommodate visitors to the refuge, the NPS, through a Memorandum of 
Understanding, manages public use along a one mile portion of the 
barrier beach at Tom's Cove. The NPS maintains a visitor contact 
station, restrooms, bathhouses, showers, pedestrian trails, and a 
lifeguard-protected swimming beach.
    Assateague Island, like all coastal barrier islands, is composed of 
unstable sediments that are vulnerable to storm damage and chronic 
erosion from wind and waves. Assateague Island is located at the 
interface of land and sea and serves as a first line of defense against 
the strong winds, huge waves, and powerful storm surges that accompany 
nor'easters and hurricanes. The exposure to wind, wave, and tidal 
energy keeps this coastal barrier in a state of constant flux, losing 
sand in some places and gaining it in others. The current recreational 
beach and facilities of the refuge are located in one of the most 
dynamic areas of the island, which places them under constant threat of 
damage from flooding and erosion. The effects from environmental change 
on national wildlife refuges are not isolated to Chincoteague. The 
effects are being realized all along the Atlantic Coastline, including, 
for example, at Pea Island National Wildlife Refuge, Blackwater 
National Wildlife Refuge, Prime Hook National Wildlife Refuge, and Key 
Deer National Wildlife Refuge.
    Over the years, storms and their accompanying extreme high tides 
have repeatedly washed out the recreational beach parking lots at the 
refuge. The Service and NPS have relocated the beach parking lots 
further to the west as they have been washed out. For example, the 
parking lots shown in the attached photo from 1990 (Exhibit A) were 
repeatedly overwhelmed by strong storms throughout the 1990s. They have 
since been relocated. Exhibit B shows the location of the current 
shoreline in relation to the parking lots from the 1990s. As you can 
see, those parking areas are now completely underwater.
    In the early 1990s, the Service developed a Master Plan for the 
refuge that is comparable to the comprehensive conservation plan (CCP) 
being developed today. At that time, as today, the beach parking lots 
were a major issue and the Service foresaw the eventual total loss of 
the land base where these parking lots are presently located. 
Anticipated and predicted loss of beach parking was addressed in the 
Master Plan as follows:
        [The Service will] continue private vehicle beach access as 
        long as beach parking areas remain, and allow the National Park 
        Service to maintain the existing number of parking spaces (961) 
        as long as the land base directly behind the dunes remains, 
        realizing that this area will eventually be lost due to the 
        natural movement of the barrier island. As natural forces 
        reduce the land base capable of supporting the current parking, 
        the number of spaces will be reduced accordingly. As spaces are 
        lost, an alternative means of transportation such as a shuttle 
        system will need to be used in order to maintain beach use.
    During the 20 years since the Master Plan was finalized, annual 
storm events and wave action impacted the man-made dune system between 
the parking lots and ocean. In the mid 1990s the NPS removed the dune 
system, which was restricting the growth of the beach and causing the 
swimming beach to become narrower. A rising ocean and coastal storms 
have contributed to the loss of parking lot areas and beach. The 
parking lots built as replacements have been repeatedly destroyed and 
the government has expended considerable funding to rebuild parking 
lots only to see them damaged again.
    In 2009, the parking lots were totally destroyed by a November 
nor'easter and the area repeatedly over-washed that winter, preventing 
the NPS from rebuilding the parking lots until the spring. In 2011, 
Hurricane Irene totally destroyed the parking lots again, and they will 
be rebuilt again this spring. Repairing these parking lots costs 
taxpayers between $200,000 and $700,000 per event.
    Continuing to invest in rebuilding parking lots in the same 
location only to watch them be destroyed and washed away raises a 
number of important questions, including: Is this good public policy 
and a responsible use of federal funds? Are these investments 
sustainable? Is there a better way to provide recreational beach 
opportunities to the public that is both fiscally-sound and provides 
longer-term viability? These are key questions that the Service has 
posed to the public and hopes to address through the current 
comprehensive conservation planning process for the refuge. We are 
confident that we can provide visitors with recreational beach access 
and provide sound public policy in the use of appropriated operational 
funding. It is our duty as public servants to be fiscally responsible 
in the management of these important conservation and wildlife areas.
Comprehensive Conservation Plan
    The National Wildlife Refuge System Administration Act, as amended 
by the National Wildlife Refuge System Improvement Act of 1997, 
requires the Service to develop a comprehensive conservation plan (CCP) 
for each unit of the Refuge System by October 9, 2012. Each CCP is 
intended to describe desired future conditions of a refuge; provide 
long-range guidance and management direction to achieve the 
conservation purposes of the refuge, refuge policy requirements, and 
the mission of the Refuge System; and support compatible wildlife-
dependent public uses on the refuge.
    Beach parking and public access, and how they are affected by sea 
level rise and erosion, are some of the most important management 
issues being addressed in the Chincoteague National Wildlife Refuge 
CCP. In addition, the CCP is being developed through an open and 
transparent public process that provides extensive opportunity for 
input from the local community and the American public.
    In 2010, the Service began a scoping process to gather public input 
and identify key issues and concerns to consider at the refuge as part 
of the CCP process. Since then, the Service has held nine public 
meetings or open houses. We also held four workshops with our state and 
municipal government agency partners, as well as other federal 
agencies. These included: April 2011, when we jointly developed CCP 
vision and goals; June 2011, when we jointly developed alternatives; 
and, December 2011, when we met to refine alternatives and resolve 
outstanding issues. Three planning update newsletters that requested 
public input and comments were published on the refuge's website. 
Refuge staff have given dozens of presentations to community groups, 
hosted tours, and given interviews to keep the public informed and to 
solicit public input throughout the CCP process. The opportunities for 
public input to help shape the refuge's CCP have been numerous, and we 
are committed to maintaining an open and transparent process as we move 
forward.
    At the current stage in the process, we have not yet finalized a 
draft CCP, nor identified a preferred alternative. However, in August 
2011, we released four potential alternatives for public consideration. 
These alternatives present different management scenarios that could be 
implemented to meet the purposes of the refuge. While it is unusual for 
the Service to seek public comment prior to development of a preferred 
alternative and draft CCP, we decided to do so because we anticipated 
an unusually high level of interest from the public.
    In December 2011, the Service met with representatives from the 
town of Chincoteague, Accomack County, the National Park Service, the 
National Aeronautics and Space Administration (NASA's Wallops Flight 
Facility is located nearby at Wallops Island), the State of Virginia, 
the Accomack-Northampton Planning District Commission, and Volpe 
Transportation Center to review the comments received to date regarding 
the initial draft alternatives. As a group we revised the alternatives. 
We are now considering three alternatives, which are outlined in more 
detail in an addendum to this statement. Common parts of all three 
draft alternatives are: a recreational beach, parking adjacent to the 
beach, off-site parking to supplement adjacent beach parking and to 
serve as emergency back-up parking, and an alternative transportation 
system.
    These three alternatives will be included in the forthcoming draft 
CCP and environmental impact statement, which the Service plans to 
release for public review and comment this year. The final CCP should 
be complete in the summer of 2013.
Offsite Parking and Alternative Transportation
    Throughout the ongoing CCP process, and consistent with the 
direction given in the refuge's original Master Plan, the Service has 
pursued the acquisition of offsite parking at Chincoteague National 
Wildlife Refuge. Offsite parking will ensure continued access to the 
refuge for the visiting public in case of short-term parking lot 
washout events, as well as potentially long-term flooding from sea 
level rise and inundation.
    Regardless of the alternative selected in the CCP process, the 
Service believes it is prudent to provide offsite parking at the refuge 
in case the current beach parking is completely destroyed by an intense 
storm. This scenario was realized just before the busy 2011 Labor Day 
holiday, when Hurricane Irene swept up the coast of Virginia the week 
before one of the busiest tourist days of the year. While Service and 
NPS staff worked tirelessly to restore as much parking as possible, 
only one-third (350 spaces) of the parking could be restored in time 
for the holiday. Thankfully, a local non-profit group scrambled to 
create a shuttle system for visitors. Providing parking for these 
emergency situations is a priority for the Refuge.
    To address the long-term sustainability of parking as well as 
emergency needs, in the 1990s the Service attempted to negotiate the 
purchase of 200 acres of land owned by the Maddox family in the town of 
Chincoteague near the refuge's entrance. While that effort was 
unsuccessful, the refuge has maintained its interest in purchasing this 
land since that time.
    In 2008 and 2009, the Service, with the Assateague Island National 
Seashore, the town of Chincoteague, and Accomack County, worked with 
the U.S. Department of Transportation's Volpe Center on an alternative 
transportation study at the refuge. The study objectively analyzed 
different ways to address transportation-related problems, including 
beach access, traffic, and parking. Key planning documents for the town 
of Chincoteague and Accomack County specify similar transportation 
planning objectives, such as reducing traffic congestion, facilitating 
forming and operating alternative transportation, and improving 
emergency management and transportation safety.
    Independent of, but coincidental to, the ongoing development of the 
refuge's CCP, in 2010 the Maddox family approached the Service to 
express their interest in selling the property. The Service recognized 
the need to move quickly to take advantage of the important 
opportunity. Based upon the analysis in the alternative transportation 
study, and the direction given in the refuge's 1992 Master Plan, the 
Service entered into an agreement to purchase the property in May 2011. 
Also in May 2011, the Service applied for a Federal Transportation 
Administration Sarbanes Transit in the Parks grant to help fund 
acquisition of a portion of the land. The Federal Transportation 
Administration announced an award for $1.5 million toward purchase of 
the property on January 17, 2012. The Service has applied for 
additional grants to help secure the total cost of $7.5 million for the 
property.
    Although the Service considered acquisition of the Maddox family 
property in the 1992 Master Plan, the Service believes additional 
review of the acquisition is appropriate under the National 
Environmental Policy Act. Acquiring this land was not initially 
intended to be part of the CCP process; however, the Service will 
evaluate acquisition of offsite parking with the environmental impact 
statement for the CCP.
Conclusion
    The U.S. Fish and Wildlife Service remains committed to an open and 
transparent public process as we continue to develop the Chincoteague 
National Wildlife Refuge CCP. We will continue to have a healthy 
dialogue with the public about the future management of the refuge, and 
be responsive to the needs and interests of the local community.
    As we continue our discussions with the public, we believe it will 
become even more apparent that the Service and the local community 
share the same values - conservation of the species and habitat at 
Chincoteague, safe and sustainable public recreational opportunities, 
and a vibrant and healthy local economy. As the refuge and the 
community are impacted by sea level rise, beach erosion, and the 
effects of continued storm damage, it is imperative that we work 
closely together to plan for the continued management of the refuge, 
for the benefit of both wildlife and people.
                                 ______
                                 
    Dr. Fleming. Thank you.
    Next we have Mayor Tarr.
    You are now recognized, sir, for five minutes.

               STATEMENT OF THE HON. JACK TARR, 
                  MAYOR, TOWN OF CHINCOTEAGUE

    Mr. Tarr. My name is Jack Tarr. I am the Mayor of the Town 
of Chincoteague. On behalf of our full-time residents and 
season visitors, I thank you for the opportunity to speak to 
you about the Chincoteague National Wildlife Refuge and the 
planning process that is underway and its impacts on our Town.
    I would also like to single out for special thanks 
Representative Scott Rigell and his staff, who has been our 
champion here in Washington and has stood by us during this 
process. Thank you.
    If I may, Mr. Chairman, I would like to give you a brief 
history of how we got to this point. The Chincoteague Bridge 
and Beach Authority built the first bridge and roadway system 
to the beach in 1962, with the blessing of Congress, to promote 
economic development on the Eastern Shore of Virginia. These 
valuable public assets were sold to the National Park Service 
in 1966 to operate and maintain over four miles of seashore at 
the south end of Assateague Island as a public recreational 
beach.
    The Town of Chincoteague has a 50-year history of support 
for the Refuge and the Assateague Island National Seashore. Our 
Town has worked hard to build an international reputation for 
the Chincoteague wild ponies, and a gateway community that 
supports over 1.5 million visitors to the Refuge each year.
    The Virginia portion of Assateague Island is a wildlife 
refuge inside a national seashore park. This is different than 
any other wildlife refuge in the country. But the CCP doesn't 
even recognize public beach restoration at all. The CCP should 
address the relationship or agreement that the U.S. Fish and 
Wildlife Service has with the National Park Service. The 
question of who is tasked with managing and maintaining the 
recreational beach is very important.
    I am here today to tell you that I feel we are being 
railroaded into less or no beach parking and forced to ride a 
trolley system in the future. Before the CCP process, U.S. Fish 
and Wildlife Service began an alternative transportation study 
that the community thought was to promote walking trails and 
bicycling. I remember the first slide that Refuge Manager Lou 
Hinds presented that day, a crowded roadway going to the beach, 
and his comment was, ``The American people have become too 
dependent on their vehicles.''
    The Volpe Transportation Center was the contractor who put 
together the alternative transportation plan, and now is the 
contractor selected to prepare the CCP and the environmental 
impact statement. We know why: It is all about public 
transportation. But the grant application award of $1.5 million 
for a park-and-ride facility on Chincoteague Island, that we 
knew nothing about. How can we trust anything in the CCP 
process?
    Based on an idea presented by Refuge Manager Lou Hinds 
during the last two years, the Town of Chincoteague completed a 
questionnaire of our visitors in 2010 that indicated these 
changes would have a dramatic negative effect on our economy. 
Over 82 percent indicated they would not return if a transit 
shuttle replaced convenient beach parking.
    In response to the CCP proposals, the Town Council has 
resolved:
    No expansion of the Refuge or Seashore should occur on 
Chincoteague Island.
    No transit shuttle system should be proposed that reduces 
convenient beach parking at the seashore to less than the 
existing spaces.
    Alternative B, to relocate the recreation beach, cannot be 
supported.
    The CCP should include an alternative that allows the 
recreational beach to remain at Toms Cove by maintaining or 
restoring the land base. The Town presented a 123 Common Sense 
Plan to be considered, but was denied.
    The CCP should include alternatives that continue the 
current exceptional visitor experience for another 15 years. 
150 ponies, 360-degree beach experience, 1000-car parking are 
examples. I think the CCP should have looked at what we have 
been doing for the last 20 years under the old Master Plan. 
This is the one we have built our community around. The problem 
is, every time we suggest how the plan that provides 1.5 
million visitors and voted the number one beach town in 2011 
could be improved, we are told, ``It is against our policy.''
    Sand fencing to prevent beach erosion: against our policy, 
but installed in other areas.
    Christmas trees to prevent erosion: against our policy.
    Dune maintenance and planting: against our policy, but 
allowed on the northern end.
    Beach nourishment: against our policy, but is allowed on 
the northern end of Assateague and is ongoing.
    The $7.5 million that is proposed for a mass transit 
parking lot would go a long way to take care of the visitor 
facilities we already have.
    Mr. Chairman, due to time, I would like to end by saying 
that the Town of Chincoteague, we feel, and it saddens me to 
say this, is under siege by the Fish and Wildlife Service.
    Their policy of implementing transit in parks and 
purchasing property in our Town limits, both ideas we oppose 
because they are completely unnecessary, is one that will kill 
jobs, crush investments, and create economic uncertainty in our 
town.
    Thank you.
    [The prepared statement of Mr. Tarr follows:]

            Statement of The Honorable John H. Tarr, Mayor, 
                     Town of Chincoteague, Virginia

    Mr. Chairman and Members of the Subcommittee:
    My name is Jack Tarr and I am the Mayor of the Town of 
Chincoteague. On behalf of our full time residents and seasonal 
visitors, I thank you for the opportunity to speak with you about the 
Chincoteague National Wildlife Refuge (CNWR) and the planning process 
that is underway and its impacts on our Town.
    I also want to single out for special thanks Representative Scott 
Rigell and his staff who have been our champion here in Washington and 
has stood by us during this process.
    If I may Mr. Chairman, please let me give you a brief history for 
how we got to this point. . .
    The Town of Chincoteague has a 50 year history of support for the 
Refuge and the Assateague Island National Seashore. Our Town has worked 
hard to build an international reputation for the Chincoteague wild 
ponies, and a gateway community that supports over 1.5 million visitors 
to the Refuge each year.
    The Virginia portion of Assateague Island is a Wildlife Refuge 
inside a National Seashore Park. This is different than any other 
Wildlife Refuge in the country, but the proposed CCP doesn't even 
recognize public beach recreation at all.
    The CCP should address the relationship or agreement that the US 
Fish and Wildlife Service has with the National Park Service. The 
question of who is tasked with managing and maintaining the 
recreational beach is very important.
    The Chincoteague Bridge and Beach Authority build the first bridge 
and roadway system to the Beach in the 1962 with the blessing of 
Congress to promote economic development on the Eastern Shore of 
Virginia.
    These valuable public assets were sold to the National Park Service 
in 1966 to operate and maintain over 4 miles of seashore at the south 
end of Assateague Island as a public recreational beach.
    I am here today to tell you that I feel we are being railroaded 
into less or no parking at the Beach, and forced to ride a trolley 
system in the future. Before the CCP process, US FWS began an 
Alternative Transportation Study that the community thought was to 
promote walking trails and bicycling.
    I remember the first slide that Refuge Manager Lou Hinds presented 
that day. A crowded roadway going to the Beach, and his comment was 
``the American People have become too dependent on their vehicles.''
    The Volpe Transportation Center was the contractor that put 
together the Alternative Transportation Plan, and now is the contractor 
selected to prepare the CCP and Environmental Impact Statement. We know 
why--it's all about public transportation.
    With the grant application award of 1.5 million dollars for a `park 
and ride' facility on Chincoteague Island, how can we trust anything in 
the CCP process?
    Based on the ideas presented by Refuge Manager Lou Hinds during the 
last 2 years, the Town of Chincoteague completed a questionnaire of our 
visitors in 2010 that indicated these changes would have a dramatic 
negative effect on our economy.
    Over 82% indicated they would not return if a transit shuttle 
replaced convenient beach parking. In response to the CCP proposals, 
the Town Council has resolved:
        <bullet>  No expansion of the Refuge or Seashore should occur 
        on Chincoteague Island
        <bullet>  No transit shuttle system should be proposed that 
        reduces convenient beach parking at the Seashore to less than 
        1,000 existing spaces
        <bullet>  Alternative B to relocate the recreational beach 
        cannot be supported at this time.
        <bullet>  The CCP should include an alternative C that allows 
        the recreational beach to remain at Toms Cove by maintaining or 
        restoring the `land base' (123 Common Sense Plan)
        <bullet>  The CCP should include alternatives that continue the 
        current exceptional visitor experience for another 15 years 
        (150 ponies, 360 degree beach experience, 1000 car parking are 
        examples)
        <bullet>  The CCP should include beach nourishment or other 
        methods to restore the sheltering effect of the barrier island.
    You have asked about my opinion of the four proposed alternatives 
in the CCP. We have been informed by Refuge staff that this may now be 
three choices because they would like to eliminate alternative C.
    I think that the CCP should have looked at what has been working 
for the past 20 years under the old Master Plan. This is the one we 
have built our community around. Unfortunately, alternative A except 
that the `status quo' option is never selected. We need to address how 
we can improve on that.
    The problem is that every time we suggest how the plan that 
provides 1.5 million visitors a year and the #1 Beach Town in 2011 
could be improved we are told that it is `against our policy'.
        1.  Sand fencing to prevent beach erosion--`against our policy'
        2.  Christmas Trees to prevent beach erosion--`against our 
        policy'
        3.  Dune maintenance and planting--`against our policy'
        4.  Beach nourishment--`against our policy'
    The 7.5 million dollars that is proposed for a mass transit parking 
lot would go a long way to take care of the visitor facilities that we 
already have.
    Fifty years of experience and public trust should not be abandoned 
in a rush to change everything and still meet a 2012 CCP deadline.
    Mr. Chairman, the Town of Chincoteague is under siege by the Fish 
and Wildlife Service.
    Their policy of implementing transit in parks and purchasing 
property in our town limits--both ideas that we oppose because they are 
completely unnecessary--is one that will kill jobs, crush investment 
and create economic uncertainty in our Town.
    We are here to ask this Committee to exercise its oversight 
capabilities and help put a stop to the massive over-reach of the Fish 
and Wildlife Service.
                                 ______
                                 
    Dr. Fleming. Well, thank you, Mr. Mayor.
    Next we have Supervisor Thornton.
    You are now recognized.

             STATEMENT OF THE HON. WANDA THORNTON, 
          MEMBER, ACCOMACK COUNTY BOARD OF SUPERVISORS

    Ms. Thornton. Mr. Chairman, Members of the Subcommittee, 
good morning. My name is Wanda Thornton, and I have served as a 
member of the Accomack County Board of Supervisors since 1996. 
My district is the Island District, which also includes 
Assateague Island. I am here today to talk to you about jobs 
and the apparent willingness of the Obama Administration and 
the U.S. Fish and Wildlife Service to destroy hundreds of jobs 
in our community.
    Our island is seven miles long, two miles wide, and the 
U.S. Fish and Wildlife Service already owns 540 acres within 
our Town limits, and plans to purchase an additional 200 acres 
of already-developed business property. This business property 
generates significant revenue and jobs for our Town and this 
County. This past Monday, the Refuge Manager, Lou Hinds told 
our elected officials that he would continue to purchase more 
land on Chincoteague from any willing sellers. This needs to 
stop.
    I own a campground on Chincoteague, and I have met visitors 
from all over the world who come to Chincoteague to visit our 
beautiful island to fish, explore, and go to the beach on 
Assateague, which is over a short causeway from Chincoteague. 
We know these families, many of whom have visited our region 
for decades. We talk to them about their experiences and what 
they like and dislike about our beach and our region's 
amenities.
    I, along with my fellow elected officials and the business 
community, have shared what we have learned with the Fish and 
Wildlife Service and in particular, Lou Hinds, the Refuge 
Manager who is responsible for developing the CCP plan.
    I have participated in a previous CCP plan; I participated 
in the Refuge Master Plan which is in existence today. I have 
to say that the process we are going through now is by far the 
most divisive and infuriating process I have encountered in my 
more than 20 years of public service.
    You will hear from the Government that they have bent over 
backwards to hold public meetings, and have invited 
stakeholders to meet on many occasions. That is true. But what 
is also true is that our concerns have been ignored. We have 
been lied to. We have been told that no matter what we say, the 
Refuge Manager has 51 percent of the vote so what we say has no 
weight. This process underway at the Chincoteague National 
Wildlife Refuge holds the opinions of the local population in 
contempt.
    People in the Town of Chincoteague are fearful for their 
jobs. They are fearful that their investments in local 
businesses or restaurants may be wiped out because a local 
Refuge Manager wants to shut down the current ocean-accessible 
beach and force tourists to ride into the Refuge on a mass 
transit system.
    You may hear the witness from the Fish and Wildlife Service 
discuss a plan to move the recreational beach further to the 
north from the current beach. This plan would require the 
destruction of more than 10 acres of wetlands and negatively 
impact the habitat of the Delmarva fox squirrel, an animal on 
the Endangered Species List.
    How exactly will the Fish and Wildlife Service get the 
approval from other Federal Government agencies to destroy 
these wetlands to create a parking lot when these same agencies 
protest decisions to impact wetlands throughout our country? 
Furthermore, our country is trillions of dollars' worth in 
debt, and we do not need to expend the money on something that 
is unnecessary.
    You can easily see how we become skeptical of the Fish and 
Wildlife Service's claim that they are going to move the beach 
parking lot farther north, which is their preferred 
alternative. Their real plan is to develop a transit parking 
system, then claim they cannot build the new beach parking lot 
because of environmental and budget concerns. That leaves the 
Town right where the Refuge Manager wanted to go all along: 
parking outside of the refuge and a permanent loss of beach 
parking.
    As Mr. Mayor said, we had our visitors complete a survey, 
and 80 percent said they will not come back. I have talked to 
hundreds of people in Accomack County who have no other beach 
to go to, who say they won't even come to our beach if they 
have to ride a shuttle system.
    The Refuge Manager and the people at the Wildlife Service 
know all of this, but they evidently don't care. With this 
grant that they just secured, without local knowledge, so we 
could not have had a chance to protest it--but they had people 
supporting it, so it wasn't something that was unknown. It is 
just that the local people didn't know it, the County didn't 
know it, or the Town didn't know it.
    We would like the Fish and Wildlife Service to immediately 
state that they are no longer planning to purchase property in 
our Town limits, and abandon their plan to do so.
    We would like them to work with us to preserve the current 
beach parking, which is possible since they bulldozed down 
those dunes. They did not wash down by themselves. They took 
bulldozers and bulldozed them down.
    In view of the time, I won't finish the other things I have 
to say. I will be available to answer questions at any time. 
And I thank you so much for allowing us to come and vent our 
frustrations.
    Thank you.
    [The prepared statement of Ms. Thornton follows:]

  Statement of Wanda J. Thornton, Accomack County Board of Supervisors

    Mr. Chairman, members of the Subcommittee:
    Good morning. My name is Wanda Thornton and I serve as a member of 
the Accomack County Board of County Supervisors. My district is the 
Island District, which includes Chincoteague and Assateague Island in 
Virginia.
    I am here to day to talk to you about jobs and the apparent 
willingness of the Obama Administration and the US Fish and Wildlife 
Service to destroy hundreds of businesses and jobs in our community.
    Our Island is seven miles long and 2 miles wide and the U.S. Fish 
and Wildlife Service owns 540 acres within our town limits and plan to 
purchase an additional 200 acres of business property. This business 
property generated significant revenue and jobs for our town and the 
county. This past Monday, the Refuge Manager, Lou Hines told our 
elected officials that he would purchase more land from any willing 
sellers in our town. This needs to stop.
    I own a campground on Chincoteague and I have met visitors from all 
over the world who come to Chincoteague to fish, explore and go to the 
beach on Assateague Island, which is over a short causeway from 
Chincoteague Island.
    We know these families, many of whom have visited our region for 
decades. We talk to them about their experiences and what they like and 
dislike about our beaches and our region's amenities.
    I, along with my fellow elected officials and the business 
community, have shared what we've learned with the US Fish and Wildlife 
Service and in particular, Lou Hinds, the Refuge Manager who is 
responsible for developing the CCP.
    I have participated in previous CCPs at the Chincoteague Wildlife 
Refuge. I have to say that the process we are going through now is by 
far the most divisive and infuriating process I have encountered in my 
more than twenty years of public service.
    You will hear from the government that they have bent over 
backwards to hold public meetings and have invited stakeholders to meet 
on many occasions. This is true.
    But what is also true is that our concerns have been ignored, we 
have been lied to, we have been told that no matter what we say the 
refuge manager has 51% of the vote, and this process underway at the 
Chincoteague National Wildlife Refuge holds the opinions of the local 
population in contempt.
    People in the Town of Chincoteague are fearful for their jobs, they 
are fearful that their investments in local businesses or restaurants 
may be wiped out because a local refuge manager wants to shut down the 
current ocean-accessible beach and force tourists to ride into the 
refuge on a mass transit shuttle.
    You may hear the witness from the Fish and Wildlife Service discuss 
plan to move the recreational beach further to the north from the 
current beach. This plan would require the destruction of more than ten 
acres of wetlands and negatively impacts the habitat of the Delmarva 
fox squirrel, an animal on the endangered species list. How exactly 
will the Fish and Wildlife Service get the approval from other federal 
government agencies to destroy these wetlands to create a parking lot 
when these same agencies protest decisions to impact wetlands 
throughout our region of the country? Furthermore, our country is 
trillions of dollars in debt; where will the Fish and Wildlife Service 
get the millions of dollars it will take to implement this 
irresponsible plan?
    You can easily see how we become skeptical of the Fish and Wildlife 
Service's claim that they are going to move the beach parking lot as 
they propose in Alternative B, which is their preferred alternative. 
Their real plan is to develop a transit parking lot, then claim they 
cannot build the new beach parking lot because of environmental and 
budget concerns. That leaves the Town right where the Refuge Manager 
wanted to go all along: Parking outside of the refuge and the permanent 
loss of beach parking.
    We have asked our visitors what they think of this idea and more 
than 80% of them said they would not come back to Chincoteague if they 
were forced to use mass transit to get to the beach. They like being 
able to drive to the beach parking lot where they can easily unload 
their beach gear and spend the day with their family. Loading a 
family's beach gear onto a trolley is not an experience our visitors 
will sign up for. There are many other options and they just won't come 
to Chincoteague.
    The Refuge Manager and the people at the Fish and Wildlife Service 
know all of this and they evidently don't care. They just secured a 1.5 
million dollar grant from the Sarbanes Transit in Parks program to 
purchase property in the Town limits to develop a transit parking lot. 
We have made our objections to this purchase crystal clear. Accomack 
County opposes moving the parking off the refuge. The Town, State 
Tourism Commission, the Office of the Governor of Virginia and the 
Virginia House of Delegates have all gone on the record and made it 
clear that we oppose the Refuge's plan to purchase property in the Town 
limits.
    Our country has a trillion dollar per year deficit but the Feds are 
going to buy a piece of property against the wishes of the local 
population for a service nobody wants to use. It's easy to see why so 
many Americans have lost faith in their federal government.
    We are here today to ask you to help us stop this reckless agenda:
        <bullet>  We would like the Fish and Wildlife Service to 
        immediately state that they are no longer planning to purchase 
        property in our Town limits and abandon their plan to do so.
        <bullet>  We would like them to work with us to preserve the 
        current beach parking system which has been in place over the 
        past five decades. There is nothing wrong with the current 
        system that can't easily be fixed.
        <bullet>  We would like them to stop proposing to thin the pony 
        herd on the Refuge.
        <bullet>  We would like them to develop a cost-sharing plan for 
        repairing the beach parking lot and stop using the modest 
        amounts it takes to repair the beach parking lot as a red-
        herring for their argument to abandon the beach.
    And finally, we would like the Fish and Wildlife Service to become 
true partners in the effort to bolster the local economy while 
preserving the unique habitat that exists on Assateague Island. I know 
it can be done because it has been done for the last fifty years. The 
plans contemplated today by the Fish and Wildlife Service are draconian 
and unnecessary, will destroy hundreds of jobs and threatens the very 
existence of Chincoteague, Virginia.
    Thank you again for your time and thoughtful consideration.
                                 ______
                                 
    Dr. Fleming. Well, thank you, Ms. Thornton, and thank you 
for observing our time limits. That is helpful so we can move 
along this morning.
    Next I would like to recognize Ms. Payne for five minutes.

        STATEMENT OF NANCY PAYNE, CHINCOTEAGUE, VIRGINIA

    Ms. Payne. Hello. My name is Nancy Payne, and I am a 
Chincoteague Island resident and business owner. For 23 years, 
my husband and I have run an open-in-the-summers art gallery. 
Our first property purchased on the island was in 1979, when we 
bought a house located on Circle Drive, which we still own.
    During our working years, we were both Alexandria-based 
teachers, and free to live elsewhere during the summers. We 
looked at several places to find a safe summer environment for 
our only child, who was 5 years old at the time. Chincoteague 
and Assateague Islands filled our requirements.
    As she grew older, our family's needs began to change, and 
in 1987 we bought a commercially zoned house and property on 
Main Street and opened a store to sell work we produce. In 
2000, we sold our home in Alexandria, Virginia and moved to 
Chincoteague and became residents. In the meantime, our 
daughter married, had a baby, and moved to Salisbury, Maryland. 
We now have a second home there where we spend about five 
months each year.
    In addition to running a business, I am a precinct captain 
and election official. Ten years ago, another person and I 
organized a group of volunteers to give summertime island 
history tours to provide additional recreational and 
educational opportunities for our tours. The Town's trolleys 
are used, and ticket sales money donated to the Town.
    Issues facing us at this hearing today center on the 
geographic locations of Assateague and Chincoteague. They are 
close in miles, but each has very different needs. On 
Chincoteague, individuals, business owners, and private 
landowners are the stakeholders, and many in the population 
rely on money generated from the tourists who sleep, eat, and 
shop on our island but go to Assateague for outdoor recreation. 
Issues arising around these differences can create awkward 
situations.
    For the last year and a half, Assateague's 15-year 
Comprehensive Conservation Plan has been debated. Refuge 
personnel have held advertised-in-advance meetings, and they 
were well-attended. Many letters and articles appeared in 
newspapers, and an enormous number of private discussions have 
taken place.
    During public presentations, the full range of alternatives 
for consideration were talked about, generating a great deal of 
discussion. Audience members asked many questions, which were 
thoroughly answered. Graphics and charts explaining the 
alternatives served as backdrops for the speaker and a six-
page, well-designed brochure illustrating and explaining the 
four alternatives handed out. I attended three of these 
meetings.
    After careful study, I concluded plan A, the do-nothing 
alternative, is not a viable option since existing parking 
would inevitably be washed away. Barrier islands, as we all 
know, naturally shift and change, and people who use them for 
recreation or their source of income must make adjustments to 
these predictable changes.
    Plan C advocates allowing natural secession and coastal 
processes to take place with little intervention, meaning 
parking lots would be shut down after storms damage them, and 
no shuttle to the beach provided. This plan would not bode well 
for Chincoteague. Plan D also did not bode well.
    As business owners, we know it is essential for visitors to 
get to the beach, even when parking lots are not usable due to 
storm damage, making a shuttle system essential. I am so 
convinced that plan B was the best solution that last summer I 
wrote a petition supporting plan B, and we and Hal and Claire 
Lott, also business owners, circulated it among our customers 
and friends. Only business owners or residents or property 
owners were asked to sign.
    It stated: ``Petition of Support to the Assateague Refuge 
removing 961 parking spaces to north on the island for purchase 
of the Maddox family campground. Signers of the petition 
support the plan by the Refuge to move and maintain the 961 
parking spaces to a more sheltered and secured Assateague 
location. They also endorse this plan to purchase the off-
island Maddox family campground for the following reasons: to 
be available as an alternative in case the beach parking lots 
are lost due to summer storm or hurricane, to provide the 
capability of emergency parking, and for supplement parking 
with a shuttle service.''
    In total, Claire and I collected 65 signatures that were 
sent in. And someone who also very much agrees with me on this 
particular issue, too, is--this appeared in the Beacon on the 
paper for the 14th of July of 2011--``Beach Access and 
Preservation Are Not Mutually Exclusive Goals.
    ``I want to be very clear that I have no issue with the 
Maddox family selling their land. Furthermore, I do not take 
issue with the idea of having a backup parking site for 
temporary parking in the event that a storm washes out the 
current parking lot. I do not dispute the possibility that such 
a storm could occur or that an offsite backup option to help 
mitigate the economic damage the Town would suffer for however 
long it may take to rebuild the parking lot.''
    The writer goes on to say in another paragraph, ``However, 
I will not support any plan that relies on a transit system as 
the primary means accessing the beach or that decreases the 
number of parking spaces within the walking distance of the 
beach.''
    The writer of this is Representative Scott Rigell.
    Thank you very much.
    [The prepared statement of Ms. Payne follows:]

          Statement of Nancy Payne, Owner of Clouds Gallery, 
                     Chincoteague Island, Virginia

    My name is Nancy Payne. I'm a Chincoteague Island resident and 
business owner. For 23 years my husband, Randolph, and I have run an 
open-in-the-summers art gallery at the corner of Maddox and Main 
Streets.
    Our first property purchase on the Island was in 1979 when we 
bought a house located on Circle Drive and which we still own. During 
this time, our working years, we were both Alexandria-based teachers 
and free to live elsewhere during the summers. We looked at several 
places to find a safe summer environment for our only child who was 5 
years old at the time. Chincoteague and Assateague Islands filled all 
these requirements. She rode her bike, swam in the ocean, had plenty of 
fresh air and room to grow. As she grew older our family's needs began 
to change and in 1987 we bought the commercially zoned house and 
property at 4296 Main Street, opened an art gallery to sell work we 
produce. In the year 2000 we sold our home in Alexandria, Virginia and 
moved to Chincoteague and became residents. In the meantime our 
daughter married, had a baby and moved to Salisbury, Maryland. We now 
have a second home there where we spend about five winter months each 
year.
    In addition to running a business, I'm a Precinct Captain and 
Election Official. Ten years ago another person and I organized a group 
of about 12 volunteers to give summertime Island history tours four 
times per week to provide additional recreational and educational 
opportunities for our tourists. The Town's trolleys are used and ticket 
sales money donated to the Town.
    Issues facing us at this hearing today center on the geographic 
locations of Assateague and Chincoteague Islands. They are close in 
miles but each has very different needs, objectives and goals. One's 
primary purpose as a National Refuge is to protect the wildlife and 
fragile land mass that is literally at the edge of the eastern shore. 
On Chincoteague individuals, business owners and private landowners are 
the stakeholders and many in the population rely on money generated 
from the tourist who sleep, eat and shop on our island but go to 
Assateague for outdoor recreation. Issues arising around these 
differences can create awkward situations.
    For the last year and a half, Assateague's 15 year Comprehensive 
Conservation Plan has been debated. Refuge personnel have held 
advertised-in-advance meetings that were well attended. Many letters 
and articles appeared in newspapers and an enormous number of private 
discussions have taken place. During public presentations the full 
range of alternatives for consideration were talked about generating a 
great deal of discussion. Audience members asked many questions which 
were thoroughly answered; graphics and charts explaining the 
alternatives served as backdrops for the speaker and a six page, well-
designed brochure illustrating and explaining the four Alternatives 
handed out. (I attended three of these meetings.)
    After careful listening, studying and thinking about the plans I 
concluded: Plan A: The `do nothing' alternative is not a viable option 
since existing parking would inevitably be washed away. It is essential 
to make plans now and not allow this to happen. Barrier islands, as we 
all know, naturally shift and change and people who use them for 
recreation or their source of income must make adjustments to these 
easily predictable changes. Plan C: Advocates allowing natural 
succession and coastal processes to take place with little intervention 
allowing natural disturbances to occur meaning parking lots would be 
shut down after storms damaged them and no shuttle to the beach 
provided causing visitors to leave since they would not be able to get 
to the beach via their own vehicles. This plan would not bode well for 
Chincoteague's tourism economic base. Plan D: Staffing and funding 
would be directed towards maximizing habitat and wildlife management 
with the result being public use activities and access may be reduced. 
Again, not good for Chincoteague's economic well being.
    As business owners we know it's essential for visitors to get to 
the beach even when parking lots are not usable due to storm damage 
making a shuttle system essential. We were so convinced that Plan B was 
the best solution that last summer I wrote a petition supporting Plan B 
and we along with Hal and Claire Lott, also business owners, circulated 
it among our customers and friends. Only business owners or residents 
or property owners were asked to sign. It stated: ``PETITION OF SUPPORT 
TO THE ASSATEAGUE REFUGE: FOR MOVING 961 PARKING SPACES TO NORTH ON 
ISLAND, FOR PURCHASE OF MADDOX FAMILY CAMPGROUND. Signers of this 
petition support the plan by the Refuge to move and maintain 961 
parking spaces to a more sheltered and secure Assateague location. They 
also endorse their plan to purchase the off-Assateague Island Maddox 
Family Campground for the following reasons: to be available as an 
alternative in case the beach parking lots are lost due to a summer 
storm or hurricane, to provide the capability of emergency parking and 
for supplemental parking with a shuttle service to the beach area.''
    Claire passed along her signed copies to me and I sent 57 
signatures to Lou Hinds. A few other people asked to have petitions but 
were to send them directly to the Refuge. My conservative guess is that 
at least 65 signatures were generated. (A blank copy is provided for 
the record.)
    During the last meeting I attended Lou Hinds went into more detail 
about the Maddox Campground which, if bought, would continue to be used 
for camping but run by the Refuge with only two week permits issued 
creating a tourist turn over that would potentially produce more 
Chincoteague business dollars. In addition, personally, I strongly 
believe that all levels of economic income should be able to afford a 
beach experience and having a safe, clean camping facility that is very 
close to the beach area would add another dimension to Chincoteague's 
clientele. I can envision youth groups, from churches, Boy and Girl 
Scouts, schools on field trips, all camping there and using a shuttle 
to go back and forth to the beach.
    Assateague's 37 miles long coast line provides a vast amount of 
space for people and at least one of these meeting Mr. Hinds also make 
it clear that there is additional room on the beach for more people 
than can be transported there by 961 vehicles. Again making a strong 
case for a shuttle for those who either don't want to be bothered 
parking on the beach or for those who can't get there because the 961 
spaces are filled.
    As to the fear expressed by some--that the Refuge would bait-and-
switch by building a parking lot on the Maddox Campground, start a 
shuttle system for emergency use and then get rid of all parking on 
Assateague--that seems to me to be over reaching in use of `suspicion.' 
The Refuge is not tucked away in some remote area where such a devious 
trick could possibly be successful. It is known around the world, has 
been visited by millions of people and is very near major metropolitan 
cities, which are the home bases for a massive number of people. If the 
Fish and Wildlife Service were to go back on its word by forbidding 
parking on Assateague and use only shuttle buses going from the Maddox 
Family Campground an extremely large number of people would have a 
collective fit and an ``Occupy Assateague' movement would take place. 
But I don't expect this to happen. I feel strongly that the Refuge has 
been honest, open and considerate by not only focusing on their needs 
but also those of their neighbors on Chincoteague. They are fully aware 
of their position in this fragile alliance and the economic 
ramifications their actions could cause to Chincoteague's well-being 
and economic bottom line.
    Other people and I agree, on this issue. I quote one of them from a 
14 July 2011 article printed in the local BEACON newspaper with the 
title reading: BEACH ACCESS, PRESERVATION ARE NOT MUTUALLY EXCLUSIVE 
GOALS. ``I want to be very clear that I have no issue with the Maddox 
family selling their land. Furthermore, I do not take issue with the 
idea of having a backup parking site for temporary parking in the event 
that a storm washes out the current parking lot. I do not dispute the 
possibility that such a storm could occur or that an off-site, backup 
option could help mitigate the economic damage the town would suffer 
for however long it may take to rebuild the parking lot.'' The writer 
goes on to say in another paragraph. ``However, I will not support any 
plan that relies on a transit system as the primary means accessing the 
beach or that decreases the number of parking spaces within walking 
distance of the beach.''
    The writer and the person with whom I agree is Representative Scott 
Rigell who has apparently requested this meeting. Had I known his views 
at the time I would have asked him to sign our petition! (Copy 
submitted for the record.)
    The natural assets of Assateague are irreplaceable and I strongly 
respect the current policy that the recreational beach will not be 
replenished and dune habitat will not be actively maintained. To do so 
would simply be a waste of money since this would have to be constantly 
redone after storms did their damage. Better to put money in a real 
asset such as the entire Maddox Family Campground which has a 
consistent land mass and could be used in many different ways.
    The Town and the Refuge mean a great deal to our family and to us. 
It is extremely rewarding to see our 9-year-old granddaughter having 
the same basic growing up experiences her mother had on these two very 
special Islands. For the mental and economic well being of all 
concerned I trust a more agreeable, thoughtful, respectful atmosphere 
will be nourished between the leaders of these two national treasures, 
their differences resolved and a pleasant working agreement 
established.
                                 ______
                                 
    Dr. Fleming. Thank you, Ms. Payne.
    And now Mr. Chesson, you have five minutes.

              STATEMENT OF SCOTT CHESSON, OWNER, 
             BEST WESTERN PLUS CHINCOTEAGUE ISLAND

    Mr. Chesson. Good morning, Mr. Chairman, Members of the 
Committee. I am here to represent the business community on 
Chincoteague Island and share my views on how the reduction or 
elimination of beach parking on Assateague Island will affect 
our business and residents of Chincoteague Island.
    I have been active in our community and a business owner 
and employer for 23 years. Our island's employers and employees 
and residents are angry and scared. We are angry because our 
Federal Government seems to be on a course to turn Chincoteague 
Island into a ghost town. We are angry because it seems that it 
seems that the current management of Chincoteague National 
Wildlife Refuge has been less than honest and forthcoming with 
us during the ongoing CCP.
    There have been opportunities for our voices to be heard, 
but it would appear our words have fallen on deaf ears. This is 
demonstrated by the fact that our Town's leaders were unaware 
that the Fish and Wildlife had applied for a grant to purchase 
part of a campground to serve as a staging area for busing 
visitors to Assateague Beach. The grant award of $1.5 million 
came as a shock to us all since we had the assurance that the 
Fish and Wildlife Service had no intentions of reducing or 
eliminating parking at the beach.
    Unfortunately, the people of Chincoteague Island no longer 
view the Fish and Wildlife as our partner. They have become an 
impediment and a threat to our livelihood. We are scared 
because a future with limited access to the beach on Assateague 
Island via a bus service will destroy jobs, diminish property 
values, and close the doors of family owned and operated 
businesses.
    Our townspeople have mortgages on their homes, business 
loans, children to feed and educate. It seems unconscionable 
that the Fish and Wildlife Service would even consider reducing 
or eliminating parking on Assateague Beach, given the number of 
lives it will destroy.
    A survey by the Town of Chincoteague conducted with our 
island's visitors during the 2010 tourist season asked, ``Do 
you come to Chincoteague primarily to go to the beach?'' 
Eighty-two percent answered ``Yes.'' Another question was, ``If 
Assateague Beach parking was replaced by a trolley/bus system, 
do you believe it would have a negative impact on local 
business or the length of your vacation in Chincoteague?'' A 
full 90.7 percent answered yes.
    Our economy was transformed when the bridge to Assateague 
was built in the 1950s. Once a small seaside fishing village, 
our island has turned into a tourist destination and a revenue-
generator for Accomack County and the State of Virginia. Our 
Town now boasts a total of 962 hotel rooms, 1,143 campsites, 
and 670 rental homes and cottages. Most if not all of these 
accommodations have an occupancy rate of 90-plus percent during 
the summer beach season.
    AOL Travel named our island the number one beach town in 
the entire country in 2011. The beach at the Assateague 
National Seashore has established our island as a premier 
vacation destination for millions of people all over our 
country. A reduction or elimination of parking at the beach 
will change all that. Jobs will be lost, businesses will be 
closed, and real estate investments on the island will be worth 
next to nothing.
    In recent days, after it was disclosed that Fish and 
Wildlife Service received $1.5 million to purchase part of the 
Maddox campground, our local Chamber of Commerce began 
receiving calls from concerned patrons of Chincoteague asking 
if the beach was going to be open this summer. One lady stated 
she would immediately put her house on the market because, 
``Once they get rid of parking at the beach, my home will not 
be worth anything.'' The negative impact of offsite parking has 
begun, and it is real.
    My daughter Hillary and I assisted the U.S. Fish and 
Wildlife Service to procure the funding necessary to build the 
Herbert H. Bateman Educational and Administrative Center about 
10 years ago. The building was named for former Congressman 
Herb Bateman from Virginia, who was a tremendous supporter of 
the Refuge and Town.
    The Center is a state-of-the-art facility that provides the 
Fish and Wildlife Service the opportunity to educate the 
approximately 1.5 million visitors to Assateague Island each 
year. With the help from the citizens of Chincoteague, the Fish 
and Wildlife Service was awarded a grant of $12 million, and 
the Herb Bateman Center became a reality. The reduction or 
elimination of parking on Assateague and the resulting 
diminished visitation is squandering an effort begun a few 
short years ago to educate the general public about the 
sensitive nature of our environment.
    The Committee asked me to voice my opinion on alternatives 
proposed by the Fish and Wildlife Service. I don't support any 
of them, and here is why: If it is not broke, don't fix it. 
From a businessman's standpoint, the cost associated with 
repairing the beach parking in the next 15 to 20 years is just 
a cost of doing business for the National Park Service.
    Furthermore, the cost is minuscule and is covered by the 
fees charged to cars entering the Refuge. The cost of 
maintaining the beach parking is less than the Fish and 
Wildlife Service would spend purchasing land for a transit 
staging area, and associated and ongoing costs of staffing and 
maintaining a bus system.
    In closing, I would like to share with you the response I 
received when I asked the owners and operators of several 
larger hotels that operate on our island of Chincoteague. I 
asked, ``How would the reduction or elimination of parking at 
the beach on Assateague affect your business?''
    Ms. Jane Wolfe, owner and operator of the Refuge Inn: ``A 
reduction of 20 percent of our customers would force us to 
close; 35 jobs would be lost.''
    Reggie Stubbs, owner of the Island Resort: ``Eliminating or 
reducing parking would devastate my business. Buses would be an 
inconvenience to people they wouldn't experience at other 
places. It wouldn't work. It would put me out of business.''
    Jeanie Rose, the manager of Comfort Suites: ``People have 
said they would stop coming. We are the only beach on the 
Eastern Shore. All of our employees are local, and I would have 
to eliminate jobs according to the loss of business.''
    Tom Derrickson, owner and manager of Hampton Inn: ``It 
would be devastating to our island, County, and the whole 
Eastern Shore. People don't realize how it would affect them. 
Numerous jobs would be lost.''
    [Time expired.]
    [The prepared statement of Mr. Chesson follows:]

             Statement of S. Scott Chesson, Owner/Manager, 
     Best Western Plus Chincoteague Island, Chincoteague, Virginia

    Mr. Chairman, members of the Committee:
    I am here to represent the business community on Chincoteague 
Island and share my views on how the reduction or the elimination of 
beach parking on Assateague Island will affect businesses and the 
residents of Chincoteague Island.
    I have been active in our community and a business owner and 
employer on our Island for 23 years and I am well connected with the 
business community.
    Our Island's employers, employees and residents are angry and 
scared.
    We are angry because our Federal Government seems be on a course to 
turn Chincoteague Island into a ghost town. We are angry because it 
seems that the current management of the Chincoteague National Wildlife 
Refuge has been less than honest and forthcoming with us during the 
ongoing CCP. There have been opportunities for our voice to be heard 
but it would appear our words have fallen on deaf ears.
    This is demonstrated by the fact that our Town's leaders were 
unaware the Fish and Wildlife Service had applied for a grant to 
purchase part of a campground to serve as a staging area for bussing 
visitors to the Assateague beach. The grant award of 1.5 million 
dollars came as a shock to us all since we had the assurance that the 
FWS had no intentions of reducing or eliminating parking at the beach.
    Unfortunately, the business people of Chincoteague Island no longer 
view the Fish and Wildlife as our partner--they have become an 
impediment and a threat to our livelihood.
    We are scared because a future with limited access to the beach on 
Assateague Island via a bus service will destroy jobs, diminish 
property values and close the doors of family owned and operated 
businesses.
    Our town's people have mortgages on their homes, business loans and 
children to feed and educate. It seems unconscionable that the FWS 
would even consider reducing or eliminating parking on Assateague beach 
given the number of lives it will destroy.
    A survey by the Town of Chincoteague conducted with our Island 
visitors during the 2010 tourist season asked: Do you come to 
Chincoteague primarily to go to Assateague Beach? 82% answered ``yes.''
    Another question was: If Assateague Beach parking was replaced by a 
trolley/bus system, do you believe it would have a negative impact on 
local business or the length of your vacation in Chincoteague? 90.7% 
answered ``yes.
    Our economy was transformed when the bridge to Assateague form 
Chincoteague was built in the 1950s.
    Once a small seaside fishing village, our Island has turned into a 
tourist destination and a revenue generator for Accomack County and the 
State of Virginia. Our Town now boasts a total of 962 Hotel rooms, 1143 
camp sites and 670 rental homes and cottages. Most, if not all of these 
accommodations have an occupancy rate of 90+ % during the summer beach 
season.
    AOL Travel named our Island the #1 Beach Town in the entire country 
in 2011. The beach at the Assateague National Seashore has established 
our Island as a premier vacation destination for millions of people all 
over our country. A reduction or elimination of parking at the beach 
will change all that.
    Jobs will be lost, businesses will close and real-estate 
investments on the Island of Chincoteague will be worth next to 
nothing. In recent days, after it was disclosed that the Fish and 
Wildlife Service received 1.5 million dollars to purchase part of the 
Maddox Campground, our local Chamber of Commerce began receiving calls 
from concerned patrons of Chincoteague asking if the beach was going to 
be open this coming summer. One lady stated she would immediately put 
her house on the market because ``once they get rid of parking at the 
beach, my home will not be worth anything.'' The negative impact of 
off-site parking has begun and it is real.
    My daughter Hillary and I assisted the US Fish and Wildlife Service 
to procure the funding necessary to build the Herbert H. Bateman 
Educational and Administrative Center about 10 years ago. The building 
was named for former Congressman Herb Bateman from Virginia who was a 
tremendous supporter of the Refuge and the Town.
    The Center is a state of the art facility that provides the Fish 
and Wildlife Service the opportunity to educate the approximate 1.5 
million visitors to Assateague Island each year. With the help from the 
citizens of Chincoteague, the FWS was awarded a grant of 12 million 
dollars and the Herbert H. Bateman Educational and Administrative 
Center became a reality.
    The reduction or elimination of beach parking on Assateague and the 
resulting diminished visitation, is squandering an effort, begun a few 
short years ago, to educate the general public about the sensitive 
nature of our environment.
    The Committee asked me my opinion of the Alternatives proposed by 
the Fish and Wildlife Service. I don't support any of them and here is 
why: if it's not broke don't fix it! From a business man's standpoint, 
the cost associated with repairing the beach parking in the next 15--20 
years is just a cost of doing business for the National Park Service. 
Furthermore, the cost is miniscule and is covered by the fees charged 
to cars entering the Refuge. The cost of maintaining the beach parking 
is less than the FWS would spend purchasing land for a transit staging 
area, and the associated and ongoing cost of staffing and maintaining a 
bus system.
    Regarding off-beach parking, how will 2 or 3,000 people take refuge 
when an unexpected storm blows up in the middle of the afternoon and 
they need to take shelter? What if mom forgets the sunscreen for her 
little ones or her child gets sick the needs to return to their hotel 
room. Putting ones children in jeopardy like that is not an option. 
Common sense dictates that our guests will choose other destinations 
for their beach experience if their mobility is put in jeopardy.
    Here is my alternative. Since we currently experience 5--10 parking 
lot closures each summer season because the parking lots are full, 
let's put an additional 200 parking spots there so this doesn't happen 
again. From a business man's standpoint, if you don't give people what 
they want or expect, they will find it somewhere else. Let's also give 
our guests a couple of new concession stands where they can purchase 
food and drinks. The profits from this operation can be used to offset 
the cost of repairing the parking lots if there is ever storm damage or 
used to finance some new beach replenishment efforts.
    The National Park Service manages the recreational beach area. If 
the FWS and the NPS work with the Town we can get all of this worked 
out and it won't cost the federal government anything. Where there is a 
will there is a way.
    The Fish and Wildlife Service's so called Alternative B plan to 
move the current beach is a classic bait and switch. They'll tell us 
they're going to move the beach but it just won't happen because of 
environmental concerns and a lack of federal funds. Then we'll be stuck 
with no beach parking and a transit system people just won't use. And 
the architect of this effort, Refuge Manager Lou Hinds, will be long 
gone.
    In closing, please let me share the response I received when I 
asked the owners and operators of several larger hotels that operate on 
our Island of Chincoteague: how would the reduction or elimination of 
parking at the beach on Assateague affect your business?
Ms. Jane Wolfe--Owner and Operator of the Refuge Inn ``a reduction of 
        20% of our customers would force us to close. 35 jobs would be 
        lost!''
Reggie Stubbs--Owner of the Island Resort ``Eliminating or reducing 
        parking would devastate my business. Busses would be an 
        inconvenience to people that they wouldn't experience at other 
        places. It wouldn't work. It would put me out of business.''
Jeanie Rose--Manager of Comfort Suites ``People have said they would 
        stop coming. We are the only beach on the Eastern Shore. All of 
        our employees are locals and I would have to eliminate jobs 
        according to the loss of business.''
Tom Derrickson--Owner and Manager of the Hampton Inn ``It would be 
        devastating to our Island, County and the whole Eastern Shore. 
        People don't realize how it would affect them. Numerous jobs 
        would be lost.
    Many believe--and their actions make it hard not to believe--that 
the ultimate goal of the Fish and Wildlife Service is to eliminate any 
human and pony presence on Assateague Island and to gain control of 
Assateague Channel as well. . .as demonstrated by the recent grant 
award. We are all wondering where all this will lead and why our way of 
life is under attack from our own government.
    Please do not allow Chincoteague Island to become a ghost town!
    Please exercise your responsibilities as an oversight committee and 
help the Town of Chincoteague, Virginia.
                                 ______
                                 
    Dr. Fleming. I am sorry. You are a minute over, and I 
applaud your enthusiasm, but we do have to move along. And 
fortunately, they have not called votes yet.
    So we will go ahead and at this point begin Member 
questions to our witnesses. To allow all Members to participate 
and to ensure we can hear from all the witnesses today, Members 
are limited to five minutes for their questions. However, if 
Members have additional questions, we can have more than one 
round of questioning. And I now recognize myself for five 
minutes.
    Ms. Weber, my question, my first question, has to do with 
process. Now, I understand that the CCP, we now have three 
alternative plans. Is that correct?
    Ms. Weber. Yes, sir.
    Dr. Fleming. Explain to me the fact that at least according 
to documents we have--which, by the way, are stamped 
``Confidential''; I can understand why they are stamped that 
way--why do we already have an executed purchase, for $7.5 
million, additional land? If the plan has not been determined, 
why have we already committed to a land purchase?
    Ms. Weber. Thank you, sir. Well, we are early in the 
process of developing the CCP in the NEPA process. This is 
still very early, and details are still being worked out, 
especially based on public comment.
    But with that being said, as stated earlier, the 1992 
Master Plan did talk about the erosion and the flooding of the 
Southern area where the recreational beach----
    Dr. Fleming. Yes. Let's not go back to the 1990s. Just very 
specifically, why buy this land for $7.5 million, when you 
haven't decided what the plan is going to be? Just very 
directly?
    Ms. Weber. So we have not purchased the $7.5 million 
campground. We have entered into----
    Dr. Fleming. This is not a----
    Ms. Weber [continuing]. Contract that would allow us to do 
so.
    Dr. Fleming. Excuse me. I am sorry. This is not an executed 
purchase that we have?
    Ms. Weber. No, sir. We have not purchased that land. We 
have not spent any dollars on that land. We are actually----
    Dr. Fleming. Well, I understand you haven't spent the 
money. But it is a signed contract, so----
    Ms. Weber. It allows us the option to do so. But we will 
not do that until the entire CCP process----
    Dr. Fleming. So you are saying this is simply an option?
    Ms. Weber. Yes, sir.
    Dr. Fleming. You can back out of this contract at any 
point?
    Ms. Weber. That is correct, sir.
    Dr. Fleming. That is not our understanding. Our 
understanding is that this is a committed contract that you 
can't back out of.
    Ms. Weber. It is an option to buy, but it is not--we have 
an option not to buy also.
    Dr. Fleming. There is nothing in here about an option. We 
will be happy to share that with you offline. It says, 
``Statement of Just Compensation.'' It is signed, executed, 
Joseph McCauley, Chief, Division of Realty--I guess he is in 
Washington--representing the Service. A number of signatures by 
both parties.
    So I would submit to you--I was very moved--your argument 
to move this parking lot and the plans that you have, I was 
very moved by the fact that you wanted to save taxpayer money. 
But I find it very difficult that we would pay $7.5 million of 
taxpayer money for land, buying a campground, when we don't 
even know if we are going to use it. So that is something that 
we are definitely going to want to pursue.
    Now, the Refuge Manager for Chincoteague was recently 
quoted that, ``Beach access is critical to maintain the 
economic vitality of the Town of Chincoteague and the 
surrounding counties.'' What is your definition of access, and 
does it include a shuttle service from a remote parking lot 
three miles from the existing beach?
    Ms. Weber. All three alternatives, as drafted now, all have 
beachside parking. And the supplemental parking would just be 
there for days of overflow as well as emergency needs.
    Dr. Fleming. All right. What is the size of the parking 
lots in the alternatives?
    Ms. Weber. 961, I believe, are deliberated in the first 
two, and 480----
    Dr. Fleming. That is the existing, but I am talking about 
the alternatives.
    Ms. Weber. Yes, sir.
    Dr. Fleming. You say there is beachside parking. How many 
cars would be able to park there?
    Ms. Weber. 961 parking spaces are available.
    Dr. Fleming. In the new--in the alternatives?
    Ms. Weber. Yes, sir, in the first and second. And I believe 
the third offers 480.
    Dr. Fleming. 480 on one of the alternatives----
    Ms. Weber. Yes, sir.
    Dr. Fleming [continuing]. And the same exact number for the 
other alternatives?
    Ms. Weber. That is my understanding.
    Dr. Fleming. Now, you mentioned the cost to taxpayers, and 
again, I appreciate that, being a conservative. However, we are 
talking about the fact that these parking lots, while they do 
require some measure of rebuilding at times, remodeling, and 
what have you, but I understand parking cost is 8 bucks an 
automobile. That really adds up fast; that is a lot of money. 
So obviously, if you move that and it is less accessible, there 
would be fewer cars. So if you have less revenue, then 
obviously savings may not count for much.
    Has there been a full study that compares the long-term 
economic impact of the existing parking situation versus the 
alternatives? Do we have a head-to-head comparison between the 
three?
    Ms. Weber. Not yet, sir, but that is part of the process. 
An economic analysis will be conducted as part of the CCP 
process.
    Dr. Fleming. And what about the economic impact to the 
community itself?
    Ms. Weber. Yes, sir. I believe all of that is included in 
the analysis conducted.
    Dr. Fleming. But it has not been completed?
    Ms. Weber. No, sir.
    Dr. Fleming. So just to summarize, as I am running out of 
time, we have a land purchase--and again, while we are offline, 
we are going to look at this again; but everything about this 
contract, and I have dealt with a lot of contracts over a lot 
of years, real estate--this to me is completely committed, 
without an escape clause. This is not a proposed contract.
    But we want to verify that because, if indeed this is a 
committed contract, this is a violation of NEPA laws. And that 
is a very serious violation. So, we will definitely pursue 
that; and we definitely would strongly suggest that we not come 
to any conclusion here until all of these studies, including 
the impact studies, have been completed.
    And with that, I will yield back my time, and I will now 
recognize the gentlelady from Hawaii for five minutes.
    Ms. Hanabusa. Thank you, Mr. Chair.
    Mr. Chair, first of all, I would like to request unanimous 
consent to enter into the record a letter from the Maddox 
family on this matter.
    Dr. Fleming. Without objection, so ordered.
    [NOTE: The letter submitted for the record has been 
retained in the Committee's official files.]
    Ms. Hanabusa. Thank you. Thank you very much, Mr. Chair.
    Ms. Weber, along the same lines, there is a CCP that is in 
existence right now, isn't there? This is the 1992 Master Plan.
    Ms. Weber. Yes, ma'am. It is a management plan for the 
Refuge.
    Ms. Hanabusa. And that is what is governing the decisions 
that are being made now?
    Ms. Weber. Yes, ma'am.
    Ms. Hanabusa. Now, what you are in the process of doing is 
modifying that Master Plan, as I understand.
    Ms. Weber. That is correct.
    Ms. Hanabusa. And the process that you are using--I think 
part of your testimony said that you are actually going out to 
the stakeholders first versus how you would normally do this. 
Can you explain to me the difference in how you are approaching 
this particular CCP, and why?
    Ms. Weber. Sure. The public's input and opinion is very 
important to us. It is very important that we have the 
sustained support of the local community as well as visitors 
from afar, that we continue to have exceptional visitor 
experiences.
    So what we have done is we are doing extensive 
communication with the public and getting their input while we 
actually pull together and develop these alternatives. And then 
once these alternatives are drafted and further detailed, we 
allow a further 60-day comment period in addition. And so we 
are doing all this upfront additional communication with our 
public to help draft alternatives, as well as allow additional 
comment once they are drafted.
    Ms. Hanabusa. As you can imagine, in Hawaii we deal a lot 
with these issues, and with Fish and Wildlife. And just so that 
they know, I have some issues with you, too, in Hawaii.
    So let me just be clear about one thing, and that is that 
it is my understanding that as soon as you get to some kind of 
plan that you want adopted, don't you just publish that, and 
then it is a formal publication, and people are given the 
opportunity to make the responses until--and then the Director 
will actually step forward and make the adoption? Am I correct? 
That is your process?
    Ms. Weber. Yes, ma'am.
    Ms. Hanabusa. So you are not even at the point where it has 
been published.
    Ms. Weber. Correct.
    Ms. Hanabusa. Now, I also understand from your testimony 
that you have three alternatives, and there were actually more 
than three, and you have actually eliminated some of them. And 
you are down to three, and you are still discussing the three. 
Is that correct?
    Ms. Weber. Yes, ma'am. Based on comments that we received, 
we eliminated one.
    Ms. Hanabusa. Now, of the three that you have, each one of 
those contains in it a provision of keeping part of the parking 
at the beach and then part offsite. Am I correct?
    Ms. Weber. That is correct.
    Ms. Hanabusa. So do you know what the numbers are in each 
of your--just for reference, 1, 2, and 3, what the numbers are 
that are being kept at the beach and how many stalls are being 
placed offsite?
    Ms. Weber. I believe the first alternative right now is 
deliberating 961 status quo, the second is 961, and the third 
is 480, with offsite parking, I believe, possibly accommodating 
200 vehicles. And we understand in the last five years there 
has been anywhere between 5 and 20 days of overflow parking, 
and that is about 30,000 to 120,000 visitors that either had to 
wait in their cars or decided not to stay. So that is why we 
believe the supplemental parking would be helpful in ensuring 
consistent and constant visitation out into the future.
    Ms. Hanabusa. So bear with me because I don't really know 
anything about how it looks or what--I mean, I saw the map, but 
that is about it.
    So when you say 961 parking stalls on plans 1 and 2, isn't 
it true that you have 961 now?
    Ms. Weber. Yes, ma'am.
    Ms. Hanabusa. So you are at status quo on plans 1 and 2?
    Ms. Weber. Yes, ma'am.
    Ms. Hanabusa. Now, is there an issue as to where it is 
located? Is that the problem with plan 1 and 2 that has the 
numbers near the beach?
    Ms. Weber. Well, I haven't had direct conversation. I do 
believe some of the concern was that the beaches would be too 
far--the parking would be far away from the beach. And we are 
talking with the Park Service and our public regularly to 
ensure that they are as close as possible, and we believe the 
second alternative would be as proximal as where status quo is 
if we were to move the beach to the north.
    Ms. Hanabusa. So you are going to have to move the beach to 
nearer the parking stalls so that they will be--what, the 
proximity would be identical to where it is now?
    Ms. Weber. Yes, ma'am.
    Ms. Hanabusa. My time is running out, and I am hoping that 
we will have a second round. And in the meantime, if we go to 
votes, I would like for you to consider--the question I also do 
have is--and I would like for you to answer in the next round--
is the relationship between Fish and Wildlife and the National 
Park Service, and who has jurisdiction over what.
    Thank you, Mr. Chair. I would yield back. I am out of time.
    Dr. Fleming. The gentlelady yields back.
    I now recognize Mr. Wittman from Virginia for five minutes.
    Mr. Wittman. Thank you, Mr. Chairman.
    I would like to thank all the members of the panel for 
joining us today. I spent many years working there on the 
Eastern Shore with the Division of Shellfish Sanitation, so you 
all are very, very close to my heart. We appreciate your 
service and the things that you are doing for a great community 
there in Chincoteague.
    Mayor Tarr, let me ask you this. I understand that during 
the summer of 2010, there was a survey done of about 13,000 
visitors to your area. Can you tell me what the results are of 
that study, what you found and what impact it may have, or what 
you think it should have, on this CCP?
    Mr. Tarr. Yes. I think the major impact that we saw was 
that 82 percent of those people polled during the survey would 
not come back to Chincoteague, would not return at all to go to 
the beach, if they had to ride a shuttle system. And to that, 
that is just an economic downfall for us.
    Mr. Wittman. Based on your assessment of the economic 
impacts that this CCP may have on the Town of Chincoteague, do 
you believe that those economic impacts should be incorporated 
in whatever comes out of this plan?
    And second, do you believe that the Park Service is 
providing you the opportunity not only to provide that feedback 
in an open forum, but also do you believe that that feedback 
that you are giving them of those impacts are being considered 
or would end up being incorporated into their plan?
    Mr. Tarr. Not at the present time, no, sir.
    Mr. Wittman. All right. Ms. Thornton, I want to get your 
perspective from the County's perspective, and obviously, you 
representing that area on the Board of Supervisors, what are 
your thoughts about the responsiveness in how the National Park 
Service considers the concerns of the Town, the concerns of the 
County, especially at a time where we know there are some 
significant challenges to economies, especially rural economies 
in Virginia, where we know it is a natural resource-based 
economy?
    We know how important the economics of tourism and of our 
natural resources are on the area. Can you give me your 
perspective from the County about how you believe the National 
Park Service is incorporating your thoughts and concerns as 
they develop this plan?
    Ms. Thornton. I don't think they are listening to us. The 
County has sent a resolution saying that we oppose purchasing 
any land within the Town of Chincoteague, and we oppose this 
grant. And the reason why is because of the economic impact on 
Accomack County.
    As you well know, it is a very depressed area. We need all 
the jobs we can get, and we need to keep the revenue that is 
being generated there. And tourism is a big engine, like $145 
million from Accomack County. That is everything that is spent.
    Mr. Wittman. Very good. Thank you.
    Ms. Payne, can you give me your perspective on what you 
believe the impacts are, and how the National Park Service may 
or may not be incorporating them into their planning process?
    Ms. Payne. Again, I think that the impact would be a very 
positive impact to have a shuttle used from the Maddox 
campground going to the beach in times of dire need, as we had 
when Irene hit, the Hurricane Irene, and they had to shut down 
the beach. If you shut down the beach on Chincoteague, you 
might as well shut down the businesses because there is no way, 
then, for people to get to the beach if they can't park there.
    So there has to be an alternative plan, and I think that is 
specifically what the Park Service said. This would be an 
alternative plan. They would still have 961 parking spaces on 
Assateague. In case a storm comes, then you would have to 
park--some people would have to park on Maddox campground.
    So the impact of not having a shuttle, I think, would be 
tremendous.
    Mr. Wittman. Mr. Chesson, let me get your perspective on 
the same question, the economic impact there and whether you 
believe the Park Service is incorporating that into their 
planning process.
    Mr. Chesson. The typical visitor to Chincoteague is a wife 
and kids, husband. They will load up their cars with all their 
beach gear, their coolers, and go over to the beach and enjoy 
the day. And they will not get on a shuttle system and have to 
endure waiting in lines, the threat of thunderstorms without 
shelter.
    It is my opinion that no, our voices are not being heard. 
And I haven't seen any evidence that any of our economic 
concerns have been addressed.
    Mr. Wittman. Very good.
    Ms. Weber, I was interested in your conversation with us 
where you said that you have not had direct conversations with 
the parties involved with the development of this plan. I want 
you to elaborate on that. I thought that under code, that you 
are required under the regulatory adoption process to have 
these kinds of conversations, to have these direct 
conversations. So I am curious about your comment to where you 
said you have not had direct conversations.
    Tell me, what is an indirect conversation? Or does that 
mean you are not having conversations at all? And if you are 
not, we certainly know that that is required.
    Ms. Weber. Thank you, sir, for allowing me that 
clarification. I sit in Hadley, Massachusetts, but our folks, 
our fine staff that sit in Chincoteague National Wildlife 
Refuge, have frequent conversations. So I just didn't want to 
imply that I had firsthand conversations, but I do understand 
that our folks have regular conversations and talk very often 
with the public. And we are very committed to continue to do 
so.
    Mr. Wittman. Thank you, Mr. Chairman. I will go ahead and 
yield back. I have another question, but I will use that for 
the second round.
    Dr. Fleming. I thank the gentleman.
    I understand that the rule vote that we were expecting has 
been voice voted. So it appears that when we are called to 
vote, it will be a one-time vote, so that is good for us. 
Sometimes plans go in your direction, and it did today.
    I now recognize Congressman Harris, my good friend Andy 
Harris from Maryland, for five minutes.
    Dr. Harris. Thank you very much, Mr. Chairman. And I am 
sorry I had to step out to the other committee for a while for 
some of the testimony.
    But Ms. Weber, and I am going to have to ask the Committee 
staff because it says in your testimony that appended are, in 
fact, these plans, but I don't--they weren't appended in our 
folder. So I don't really know what these plans are.
    What is the difference between the first and the second one 
in terms of the parking plans? And when you say alternatives 
and you are down to three, I assume that is three in addition 
to a do-nothing alternative?
    Ms. Weber. That includes a do-nothing. And I just want to 
remind you, we are in the early stages, still developing this, 
so we haven't put our draft out. But I believe that there is no 
difference between the first and the second alternative in 
beachside parking.
    Dr. Harris. And what about in non-beachside parking in the 
first and second alternative?
    Ms. Weber. I believe those are the same as well, sir.
    Dr. Harris. So somewhere in here in all this, I appeared to 
get the impression that once you built the offsite parking, as 
beach parking was washed away, you wouldn't be replacing it. 
Which alternative is that in?
    Ms. Weber. Well, status quo right now is we are seeing that 
the beach continues to erode away. And we have estimates from 
the Corps of Engineers that it would cost approximately $30 
million to $40 million to put beach renourishment----
    Dr. Harris. My specific question is, under plans A and B, 
you start with 961 beach parking. But I assume both of them 
have offsite parking as well. Under both plans, would you 
maintain those 961 spaces in addition to offsite parking, or 
eventually, as they get washed away, you would migrate it to 
offsite parking?
    Ms. Weber. We plan to have, and all our alternatives right 
now have, beachside parking included.
    Dr. Harris. What happens when the next big storm comes and 
destroys some of your beachside parking under plans A and B? It 
is not a complicated question, you see. Because I truly believe 
that just like in Assateague, the goal is eventually to move 
human beings off the beach. I really do feel that. That just 
seems to be the way the Government thinks about these things.
    So this is a very simple question because I don't have 
the--I don't know why it is not appended here. Under plans A 
and B, what happens when the next big storm washes away the 
beachside parking?
    Ms. Weber. Well, even though we are in the early--by the 
way, we also, Fish and Wildlife Service, value visitation. And 
people----
    Dr. Harris. Could you just answer my question, please? I 
only have two and a half more minutes.
    Ms. Weber. Yes, sir.
    Dr. Harris. It has taken you a minute and a half. It is a 
simple question.
    Ms. Weber. Yes, sir. We----
    Dr. Harris. Unless you place no emphasis on the value of 
people parking at the beach, I can't understand how it has 
taken a minute and a half to answer that question. I just can't 
understand it.
    Ms. Weber. We do have emphasis on people parking at the 
beach. And one of the reasons that we also thought about moving 
north----
    Dr. Harris. What is the difference between plan A and B 
with the 961 spaces? What happens to them when the next big 
storm comes? Do you not know?
    Ms. Weber. I believe that----
    Dr. Harris. No, no. Do you know or not know? I don't want 
``I believe.'' What does the plan say? You are here to testify 
on plans. These people here, their livelihood depends on your 
plans.
    Ms. Weber. Yes, sir.
    Dr. Harris. Now, you are paid good money from Federal 
taxpayer dollars to know what is going on in the Wildlife 
Service. What are plans A and B going to do when the next big 
storm comes and washes away parking? And my citizens from 
Maryland want to go down--I don't know why they would want to 
go down to Virginia, but they want to go down to Virginia. They 
want to spend money at these people's businesses, and they want 
to park on the beach. What happens to those parking spots?
    Ms. Weber. Yes, sir. We do not have all the details 
finalized yet, but we very much have in every one that we have 
beachside parking.
    Dr. Harris. What happens to the--do you maintain the 961 
spaces under those two plans?
    Ms. Weber. Status quo right now does not have that. If they 
keep getting overwashed like now, we are spending between 
$200,000 and $800,000, according to the estimates we received 
from the Park Service, to continue----
    Dr. Harris. Three and a half minutes. You haven't answered 
a very, very simple question. Is the plan ultimately that as 
these beachside spaces, if they get washed away, are you going 
to spend the money to replace them or are you going to migrate 
it offsite?
    Ms. Weber. Well, we are still in the early options, but we 
are looking at moving the beach a mile and a half north, where 
it has shown that we do not have as much beach erosion.
    Dr. Harris. So plan A and B at this point do not guarantee 
keeping beachside parking spaces?
    Ms. Weber. Yes, sir.
    Dr. Harris. Fascinating.
    Ms. Weber. They do have beachside parking.
    Dr. Harris. Keeping them regardless of storms. Fascinating.
    Ms. Weber. Both alternatives do, sir.
    Dr. Harris. So your testimony now is both plans, even if 
those 961 spaces are washed away, both plans will restore those 
961 spaces?
    Ms. Weber. Two of the three, I believe, at this time do 
have that, sir.
    Dr. Harris. Plan A and B will retain all 961 spaces despite 
them being washed away? You would rebuild them?
    Ms. Weber. I believe at this time the second and the third 
do; the first allows natural processes to occur.
    Dr. Harris. But the third doesn't have 961 spaces.
    Ms. Weber. No. I believe one of the options being looked at 
is 480.
    Dr. Harris. Thank you very much.
    Dr. Fleming. The gentleman yields back.
    Let's see. And next we have Mr. Rigell from Virginia.
    Mr. Rigell. Thank you, Mr. Chairman.
    I think the impact on the local economy, that point has 
been well made, and I hold that to be true. So let me focus on 
the investment side, Ms. Weber. You know, the good folks of the 
2nd District have sent a businessman to serve and represent 
them, so I am very comfortable with the numbers. I hope you are 
as well because we are going to walk through them today.
    The $7-1/2 million, would you agree that that is just the 
start? That is absolutely no improvements whatsoever to the 
property, the campground purchase?
    Ms. Weber. That would be the--I believe, yes.
    Mr. Rigell. And under the two options of the three, the 
beach parking at the north part of the beach--this is new 
parking--that would be a new investment. Correct? Requiring 
substantial material being moved, the clearing of woodlands 
right there to--I have been there. I know the answer to the 
question. But it would require a major investment, would it 
not?
    Ms. Weber. It would incur costs, sir. I don't have those 
numbers.
    Mr. Rigell. They would be significant, I assure you. And 
also, and I think this is critical to keep in mind--it works 
against the very goals of the organization--it would require 
the destruction of habitat. I was thinking that the whole time 
that Lou was driving me up there. He is showing me where all 
these parking places would be at the north end of the beach, 
and I am thinking, look at the wildlife that is there now. So 
you be working actually working against the objective of 
preserving habitat.
    Now, so we have got, I think, significant investment, 
capital expenditures, that have not yet been calculated. Both 
the improvements at the campground, the actual improvements of 
the road and the parking on the beach proper, that doesn't even 
begin to consider the cost of the purchase of the Disney-type 
shuttles. Correct?
    Ms. Weber. I don't know what costs you are referring to, 
but there will be costs to----
    Mr. Rigell. Shuttles. The shuttle system.
    Ms. Weber. There is a cost for the shuttles.
    Mr. Rigell. I was referring to Disney because I just have 
clear memories of that as well. You park in the parking lot and 
you are shuttled into the park.
    The shuttles themselves, would you agree that that is a 
significant expense?
    Ms. Weber. I believe that it would be approximately 
$900,000 to purchase a shuttle.
    Mr. Rigell. Plus the ongoing cost of maintaining them and 
running them.
    Ms. Weber. Which we estimate to be approximately $200,000 a 
year.
    Mr. Rigell. $200,000 a year. OK. Now, there is a great 
disparity between what you have said is estimates as to what it 
has cost to replenish the beach from time to time versus what 
the Chairman quoted. He quoted a specific number, and you have 
quoted an estimate. How can we reconcile those numbers today?
    Ms. Weber. We receive our numbers from the Park Service, so 
I would have to go back and get those exact numbers from the 
Park Service, sir.
    Mr. Rigell. Do you dispute, though, that it could be 
significantly--that it could be the numbers that the Chairman 
quoted? Correct? Which were, in some cases, one-tenth of what 
you quoted.
    Ms. Weber. I have no way at this time to say which is the--
where that came from.
    Mr. Rigell. Now, let's look at the effect on the local 
economy. A shuttle, by any standard, is not going to be 
available the moment someone gets out of their car, and then is 
going to be transited into the area of the beach. Correct? I 
mean, you don't anticipate one, as soon as someone gets out of 
their car, that the shuttle is just sitting there?
    Ms. Weber. Well, I imagine it would be there, if not 
immediately, a moment later.
    Mr. Rigell. Oh, but at some--there is going to be some 
delay, plus the ride in, plus getting your beach chair, your 
cooler, those things that make the beach experience today 
really unique and special. And your ability to get all of your 
gear out of your car, into right there on the beach.
    And when these summer storms pop up in Virginia, they come 
up very quickly. You have young children. Are you really going 
to sit there and wait on the beach, waiting for the shuttle to 
come back around, when you see storm clouds coming from the 
West? No. You are going to get in your car and you are going to 
leave the beach.
    Do you dispute--I just want to ask, one American to 
another--do you dispute that there would be some impact--
however slight it may be in your mind, significant in mine--but 
however slight, some degradation of the experience, the 
convenience, going to a shuttle system? Do you admit that there 
is any inconvenience whatsoever?
    Ms. Weber. Actually, sir----
    Mr. Rigell. Please. I guess, to the point of Dr. Harris 
here, our time is so limited. I don't like to interrupt you. I 
really don't. But is there any degradation of the convenience 
and the appeal of Chincoteague by having to ride a shuttle 
system? Just a yes or no, please.
    Ms. Weber. Not necessarily.
    Mr. Rigell. No. That is where logic is thrown right out the 
window. This is what is wrong with America. We are regulating 
ourselves out of our prosperity. This is a classic example of 
an overly intrusive Federal Government. And as I shared with 
Mr. Hinds on the beach that day, I said, if you want to work 
together for some solution that keeps folks employed, I am with 
you.
    But if you go this direction, I will do everything I can to 
stop this because you have understated the cost. We are taking 
property off the tax rolls in the Town of Chincoteague. So here 
we are in America. We are elevating our expenses. We are 
reducing our income. And we wonder why we are in a fiscal 
crisis.
    So I respectfully disagree with you, and I will continue to 
fight for the hardworking taxpayers of Virginia and 
Chincoteague, and for jobs in Virginia.
    Thank you for your testimony today. I yield back.
    Dr. Fleming. I believe we have completed the first round. 
Would the panel be up for a second round? I get enthusiastic 
nods. So, with that, I will recognize myself for five minutes.
    I have been listening with great interest in all this. It 
is a little bit complex and little bit difficult to understand 
about movements and contingencies and so forth. And I do think 
that this plays into the argument for the Fish and Wildlife 
because, for instance, in one of these plans, the plan is to 
ultimately have a beachside parking lot, and that sounds great.
    Unfortunately, to accomplish that, you have to get over 
many, many barriers. You have wetlands and you have EPA and you 
have all of these things, which make it unlikely that that 
would ever happen.
    Then you have the Maddox plan, purchase of Maddox, which 
only begins the cost structure. That is not the end at $7.5 
million. And that cuts in half the number of parking spots.
    And then, even back to the other plan where you have 961 
spaces beachside, as you mentioned, Ms. Weber--I am addressing 
you--if that gets washed out, then we are back in the same boat 
we are today after spending all of this money, even if we can 
get past the wetlands issue and EPA.
    So can you make some--I mean, I am a logical thinker. I am 
a physician, a business person. Everything I do has got to fit 
some kind of logic. I am just not getting the logic. Why do we 
spend all this money and go through all the trouble and make 
all these plans, which we probably can't executive, in order to 
end up where we are today? Please explain that to me.
    Ms. Weber. Thank you. And just for clarifying purposes, I 
was just made aware that all three alternatives, Congressman 
Harris, would have parking lot repairs. And we would not 
proceed with any alternative if we didn't follow, and were in 
compliance with, all legal mandates. And so we believe all of 
our----
    Dr. Fleming. Well, I get that. But you know how it is 
building anything on wetlands and getting things past the EPA. 
It is virtually impossible. So, I mean, we are talking about a 
1 percent chance of making that happen. So that is why I say, 
why would you want to move? I mean, I have maps of the barrier. 
It moves north, but it is still in the barrier. It could be 
washed out just as easily as the one that we have today.
    So, I mean, you could think a little conspiratorial here 
and say, well, that is the plan. We don't want it to happen, so 
we make a plan that is impossible to execute. You can see that 
there is a little bit of cynicism based on past history and 
some of the things that we are seeing here today.
    And so that is why I ask: Why set about a plan that is 
impossible to execute when even at the end of the plan, you are 
no better off than you are today, and there are certainly much 
fewer dollars? And by that, I mean a beachside parking space.
    Ms. Weber. I would like to add that we also have some data 
showing from 1966 to 2010 that the southern portion where the 
beach is now has eroded at a much faster, and continues to 
erode and flood at a much faster rate than where the----
    Dr. Fleming. Well, currents can change. That obviously 
could reverse, and it could begin at the north. I don't think 
that--the rate of erosion is not a very strong argument, in my 
opinion. So basically, you are not able today, Ms. Weber, to 
explain the logic behind doing this, is what I am 
understanding.
    Ms. Weber. Behind doing what, sir? Preparing three 
alternatives to provide reasonable options, or----
    Dr. Fleming. By spending lots of money to move parking lots 
to places that even if you could accomplish it, you are no 
better off than you are where you are today. That is the logic 
I am trying to understand.
    Ms. Weber. Actually, we believe it to be a long-term 
insurance policy. So not only would we have near-beach parking, 
but we would also be able to ensure that on overflow days or 
days of emergency situations, we would be able to provide 
parking for those situations as well.
    So we look at it as a longer-term viability option, while 
also taking into consideration the needs of----
    Dr. Fleming. Well, but these can wash out just as easily.
    Ms. Weber [continuing]. The people tomorrow.
    Dr. Fleming. I mean, the parking lots are on the same 
barrier. They can wash out just as easily. Is that the way we 
should continue to do business? I admit we have been doing 
business this way, where we spend tens of millions of dollars 
and find ourselves full-circle back where we were. I am sorry, 
I am not compelled by that logic.
    I do want to ask, in the brief time that I have left, is 
how many times has the public parking lot been destroyed in the 
last 10 years, the one that we have today?
    Ms. Weber. I do not have that number, sir. But I do believe 
that we have spent approximately $2.4 million in the last five 
years on the parking lots that have overwashed.
    Dr. Fleming. Can you give me any idea? One time? Ten times?
    Ms. Weber. We just know it has washed several times in 
individual years, but we don't have the exact number, sir. I 
apologize.
    Dr. Fleming. All right. I see my time is up, and I believe 
Ms. Hanabusa is up next.
    Ms. Hanabusa. Thank you, Mr. Chair.
    Ms. Payne, I have read your testimony, and you seem to be 
the person who is in favor of the movement of the parking lot 
as well as the purchase of the Maddox family.
    Ms. Payne. Right. Yes.
    Ms. Hanabusa. Am I correct?
    Ms. Payne. You are very correct, yes.
    Ms. Hanabusa. Now, can you tell me, there seems to be 
potentially this undercurrent going on in the community about 
the purchase of the Maddox property.
    Ms. Payne. Right.
    Ms. Hanabusa. And, in addition, to the movement of the 
parking lot.
    Ms. Payne. Right.
    Ms. Hanabusa. Are they mutually exclusive or are they two 
separate concerns?
    Ms. Payne. Somewhat, but they are connected. Yes, they are 
and they aren't. I mean, yes, you have to have parking for the 
tourists to come. We know that. The 961 right now that are on 
the beach are very vulnerable because they are so close to the 
ocean. So to move the parking lot north into more stable ground 
and back a little bit away from the ocean makes sense to me.
    Also, purchasing the Maddox campground would do several 
things. It would provide for a shuttle bus. It would provide 
for an additional 961 parking spaces in case they were wiped 
out completely on the beach. Then that would ensure the 
business community that tourists could always get to the beach.
    That is very important. That is extremely important. That 
is mainly why people come to Chincoteague, is to go to the 
Assateague beach. And while they are on Chincoteague, they eat, 
sleep, buy things. So it is the base of the economy.
    Ms. Hanabusa. Let me ask you this, not knowing anything 
about your community. When people come to stay at the hotel or 
at another ranch or whatever facilities you provide, is parking 
then on the beach or is parking at the respective facilities?
    Ms. Payne. You mean where they stay?
    Ms. Hanabusa. Right. They stay.
    Ms. Payne. No. When you go to Assateague, there are--
Assateague is a completely natural beach. Is that where you 
mean, where there are things directly on the beach?
    Ms. Hanabusa. No. I want to know where people park when 
they come to stay in Chincoteague or wherever they may be 
staying. Do they park at the facilities that they are staying 
at?
    Ms. Payne. Yes.
    Ms. Hanabusa. Thank you.
    Now, Ms. Weber, I gave you the opportunity to think about 
my question, which was the relationship between jurisdictions 
between yourself and the National Park Service--of Fish and 
Wildlife, not yourself. But what is the relationship as it 
affects this community?
    Ms. Weber. Yes, ma'am. We are in a memorandum of 
understanding with the Park Service, and they manage the beach. 
And we provide them funding every year through the revenues 
generated to help manage the beach.
    Ms. Hanabusa. When you gave your opening statements a while 
ago, I remember the picture where you have the beach under 
water--I mean, the parking lot under water that was before. So 
I am curious, and I will share with the people who are fighting 
your proposal to repair and to keep parking facilities because 
in Hawaii, we have the most number of endangered species 
anywhere in the United States. And believe me, you do not see 
Fish and Wildlife saying that they are going to rebuild a 
parking facility on a beach for us.
    But having said that, I am curious because I see it washed 
away, and I see new parking. And how do you intend to replace 
it if those 961 get washed away? It looks like it is just 
encroaching and encroaching.
    And you made a statement about $30 million to $40 million 
it would cost the Army Corps to restore the beach. Now, how 
does this all play together, if it does?
    Ms. Weber. Well, we are afraid that, in the long term, that 
beach is very vulnerable to beachside flooding as well as 
erosion. And we did get early estimates from the Corps of 
Engineers that to renourish the beach and put in groins, as 
they believe would be necessary, could cost up to $30 million 
to $40 million, with another $2 million to $5 million every 
three to five years to maintain.
    Ms. Hanabusa. Now, if you were to do that, that $30 million 
to $40 million, would that then maintain the parking lots the 
way--would they still be faced with parking lots being washed 
away?
    Ms. Weber. Yes, ma'am. That is still considered a short-
term fix and not a long-term viable solution.
    Ms. Hanabusa. So the amounts, you said that it was $2.4 
million in the past five years. Can you provide the Committee 
with exactly how much it has cost, whether it is Park Service 
or yourself, to maintain and repair the beaches, and how 
frequent it is going to be?
    Because it seems to be that is your decision, or one 
alternative is to move the beach further north, I guess, and 
then--because it doesn't erode as quickly. Is that correct?
    Ms. Weber. Correct. And yes, we could. I could receive 
those numbers from the Park Service and provide it to you.
    Ms. Hanabusa. And again, just to emphasize what you said 
earlier, you are still in the stakeholder consultation process. 
There are no firm plans being made, and these are the 
alternatives. So the people of Chincoteague are going to have 
their opportunity to play into this decision?
    Ms. Weber. Very much so. That is correct.
    Ms. Hanabusa. Thank you. I yield back.
    Dr. Harris [presiding]. Thank you very much.
    I recognize the gentleman from Virginia, Mr. Wittman, for 
five minutes.
    Mr. Wittman. Thank you, Mr. Chairman.
    Ms. Weber, I want to go back to you on a direct point. When 
you go through the process of soliciting feedback, whether it 
is through the Regulatory Flexibility Act, environmental impact 
statements, tell me historically, since you work in the 
regional office and you have seen these efforts going into 
writing these plans, give me an instance where you have gotten 
feedback from stakeholders, from the business community, and 
others--give me an instance where you have taken those 
considerations and have incorporated them into the final 
version of the plan, and tell me where it has been different 
from the original plan that you have advertised based on the 
comments that you have gotten through the public comment 
period.
    Ms. Weber. Thank you. Most of my career has been spent 
working on endangered species, and I have published many plans 
where feedback from the local community, whether they be 
business owners or other constituents, have provided us very 
valuable input. And it has been incorporated into the economic 
analysis done on the critical habitat, and decisions have been 
made to exclude those areas from critical habitat.
    Specific to Chincoteague, even though this is in the very 
early stages, we used to have four alternatives. But based on 
feedback we received about the concern about not actively 
managing the parking lot area, we did exclude that. We dropped 
that alternative.
    So even though it is very early, I just wanted to 
demonstrate an example from this experience as well, sir.
    Mr. Wittman. So what you are saying is that the end result 
is that the plan that you adopt will unequivocally include the 
concerns of the business community and the concerns of others 
about the economic viability of Chincoteague based on the plan 
and the location of these parking spaces?
    Ms. Weber. An economic analysis will be done, and all 
public comment will be considered equally.
    Mr. Wittman. Considered.
    Ms. Weber. Yes, sir.
    Mr. Wittman. Incorporated into the plan?
    Ms. Weber. Incorporated. Yes, sir.
    Mr. Wittman. Very good.
    Mr. Chairman, I would like to yield the balance of my time 
to Mr. Rigell.
    Mr. Rigell. I thank the gentleman.
    I have had the privilege, of course, of being on this 
subject area several times. And I think it is important for all 
of us to note that not all beach parking is equal. The plan 
that is proposed by Mr. Hinds, the ones that refer to moving 
that parking north, it is not the equivalent.
    Even that isn't the equivalent because the parking as it is 
now, the visitor can get out of his or her car and they are 
literally on the beach. They are seeing the waves, and they are 
right there.
    The two proposals that have us decimating, in my view, 
habitat--and that is indisputable, in my view--you are parked 
back, I would say, several hundred yards from the actual beach. 
And then you would be going over a boardwalk across wetlands to 
get to the beach.
    So you would still have--you wouldn't be able to get out of 
your car--which is one of the principal attributes and real 
draws to the beach as it is now, is you can have your gear in 
your car and the things for your kids and all of that--this 
wouldn't be the case. Even if you could park there in the 
northern area, you would still be lugging stuff on your 
shoulders, and you just--it wouldn't be the same experience.
    Now, I want to go back to this whole idea of process, Ms. 
Weber. Now, as you look at the NEPA process, I want to ask you 
just a couple of questions. Now, would you agree that at least 
one of the alternatives does not require the purchasing of 
additional land?
    Ms. Weber. All three alternatives at this time, sir, 
contemplate the supplemental parking.
    Mr. Rigell. Well, OK. Let me just--all right. Well, I will 
defer to you on that. But let me ask you this. The law requires 
that an EIS not be prejudiced by committing resources toward 
implementing one management plan while other management plans 
are still open for consideration.
    It is true that we have several plans out there, several 
alternatives. Correct?
    Ms. Weber. Yes, sir.
    Mr. Rigell. Isn't it true, though, that as Mr. Hinds has 
stated, basically, if he could tomorrow, he would move 
forward--if he had the $7-1/2 million, he would move forward 
with purchasing that property. Is that correct?
    Ms. Weber. No, sir. We will not be purchasing any property 
until the----
    Mr. Rigell. That is not what he has told me. If he could 
buy that property, he would. So there is a material difference 
of fact here that needs to be determined. It has been my 
understanding in talking with him that they would move forward 
with the purchase.
    Why, then, move forward with the application, the $1-1/2 
million, if you are not going to go and use that money?
    Ms. Weber. Well, the FTA did tell us--we wanted to go ahead 
and position ourselves in case that was an outcome of it. And 
the FTA did tell us that they would not be granting us those 
funds until after this, if indeed until it was finalized in the 
CCP, and if that was the alternative that was chosen.
    Mr. Rigell. The facts, as I read them, are clear, is that 
there is, based on the evidence, based on the action of the 
Department, that there is a NEPA violation that has my full 
attention. And we are going to give that consideration I need 
the attention that it deserves going forward.
    I thank the gentleman for yielding.
    Dr. Harris. Thank you very much. And I yield myself five 
minutes for a second round of questions.
    Thank you, Ms. Weber, for getting me that answer. I am 
sorry that it took four minutes of questioning to actually get 
the answer.
    You know, it is amazing. These hearings really do serve a 
purpose. They really bring to light what the problems with the 
Federal Government are when the rubber meets the road. You 
know, Mayor Tarr and Supervisor Thornton and Mr. Chesson, don't 
worry. The Government is here to help you. Don't worry. The 
Federal Government is here, and they are here to help you.
    I am going to ask the three of you, very briefly, because I 
have a few other questions for Ms. Weber, as she might imagine, 
are things that bad that we need to make drastic changes right 
now? I mean, we heard that, my gosh, when those storms wash 
things out, we are going to have to spend now well over $10 
million to create some system to get people back and forth.
    I mean, I assume that your businesses--you know, look. That 
is the way the businesses work. You have a storm. It washes 
out. People come back afterwards. Really briefly, is the system 
that badly broken right now, Mayor Tarr?
    Mr. Tarr. We don't think so. I think you would have to go 
back and look at some of the history of why we are washing over 
on a regular basis. The dunes were pushed down--and I am not 
going to be able to tell you exactly----
    Dr. Harris. That is part of the testimony. Thanks.
    And just very briefly, Supervisor Thornton, are things 
really broken right now?
    Ms. Thornton. No, sir. They are not.
    Dr. Harris. Mr. Chesson, are things really broken right 
now?
    Mr. Chesson. They don't seem to be.
    Dr. Harris. Isn't it wonderful the Government is going to 
come in and solve your problem. Don't worry, the Government is 
going to come in and solve your problem.
    Now, Ms. Weber, the Chairman mentioned--I mean, we have a 
memo here that says that the cost of the--the payroll costs, 
the materials, and supplies for damage repairs from the 
Nor'easter Ida was $34,000. Hurricane Irene was $69,000. Where 
the heck does the $700,000 come from in your testimony, your 
written testimony?
    Ms. Weber. That comes from the National Park Service, sir.
    Dr. Harris. And I am going to ask you to ask the Chairman 
to supply those numbers to the Committee.
    Is it really true, Mayor Tarr, that Mr. Hinds said--his 
comment was--because you have it in quotes in your testimony--
``The American people have become too dependent on their 
vehicles''?
    Mr. Tarr. That is correct.
    Dr. Harris. Wow, that is a pretty American approach to take 
from someone from the Government.
    Ms. Weber, I visited up north of you at our place, and they 
gave me a copy of their alternatives. And I was struck by the 
number of times the words ``climate change'' appeared in it. Do 
you think that is the greatest threat to your Refuge, the 
Refuge we are talking about today?
    Ms. Weber. I believe the greatest threat to the Refuge 
today is beach erosion and flooding, sir.
    Dr. Harris. And is it due to climate change?
    Ms. Weber. Some models predict so, but we----
    Dr. Harris. Is that the greatest threat? Is the greatest 
threat--it is a simple question.
    Ms. Weber. I believe----
    Dr. Harris. Is the greatest threat due to climate change?
    Ms. Weber. I do not know that, sir.
    Dr. Harris. But you are making a plan based on future 
modeling, and you said the words ``sea level rise'' in your 
testimony. It says the words ``sea level rise.'' Now, sea level 
rise assumes that climate change is a major issue, and it must 
take modeling about what the sea level rise is going to be.
    I mean, I assume that if you are going to plan to spend 
tens of millions of dollars to help these folks when they don't 
really want help, you had better have a model. What model of 
climate change did you use in the assumptions for your plans?
    Ms. Weber. We are not using those models, sir, even though 
they do exist.
    Dr. Harris. You used no model for climate change in your 
plan?
    Ms. Weber. We are using the past. That is why I put up the 
photo, sir. We are using what has happened in the past. We have 
already lost over 800 feet since 1967.
    Dr. Harris. So you are not using a climate change model for 
the future; you are just extrapolating a line from the past? Is 
that--or could you get me--I am going to ask you in a question 
subsequent to please provide the Committee with the modeling 
used. And again, I assume you are doing this scientifically. I 
assume because you are certainly not doing it economically 
because these folks are telling you, it is not broke. You know, 
people get there.
    The Representatives who represent the districts say, look. 
Their people aren't complaining about it. I don't get 
complaints from my people that they have to wait in line in a 
car when they unfortunately drive south of the border to 
Virginia.
    So something has to be driving this. And my suspicion is, 
is because I saw the same thing happen up north when I visited, 
is that there is an overwhelming bias from this Administration, 
and it trickles down to every level, in that, oh my God, we 
have to protect against this tremendous climate change that is 
going to occur, and the sea level rising up to 30 feet.
    Let me tell you, I represent the Eastern Shore of Maryland. 
If that sea level rises the way some of these projections are, 
the last thing we have to worry about is the beach. It is the 
last thing we are going to have to worry about.
    So just again, I look forward to seeing the final copies of 
this. I guess I am going to have to make a trip down there and 
see this personally. Now I am going to have to cross that 
border into Virginia. I will visit you, Mayor.
    And I am going to yield back the balance of my time and 
recognize the Representative from the district, Mr. Rigell.
    Mr. Rigell. I thank the Chairman. And Ms. Weber, I would 
like for us to continue our conversation.
    Would you agree that the creation of the parking lots, 
those proposed in the north of the beach at present, would 
actually destroy acres of what are now currently woodlands?
    Ms. Weber. I don't believe--we are still in the process of 
looking where the best placement would be, sir. No final 
decisions have been made.
    Mr. Rigell. No. There is a specific--we need to deal with 
reality here. There is specificity in this matter. I was taken 
by Lou and shown where the parking lots would go, or their 
approximate position. But it is not in dispute that the two 
options include the destruction of what is currently woodlands. 
Can we agree on that?
    Ms. Weber. No, because I don't believe any final decision 
is made. But I do----
    Mr. Rigell. You are stretching the bounds of common sense, 
logic, and the English language here. I do not take any 
pleasure in zeroing in on this, but I have a duty to the 
citizens of the Commonwealth and those I have the privilege to 
represent and my children and grandchildren.
    It will require the destruction of what is now woodlands. 
There is no alternative to that. There is no parking there 
presently. The options say that we are going to create parking 
for hundreds and hundreds of cars. Logic demands that 
bulldozers push over the trees and all the habitat that we all 
want to protect. I do not concede this point to you.
    Now, second, I do not concede your point that perhaps it 
may reduce--or not necessarily so, was your point--that it 
wouldn't necessarily reduce the attractiveness of using the 
beach to have to ride a trolley system. Is that still your 
testimony, that having to ride a shuttle versus the convenience 
of being able to pull right up, see the waves and the beach, 
and let your kids out, is it still your testimony that it is 
not necessarily going to impact the attractiveness of going to 
Chincoteague to have people be forced to ride a shuttle system?
    Ms. Weber. Sir, in my mind I was thinking about those poor 
folks that have to wait in their car until the 961st person 
leaves. I was just thinking that it might be more preferable to 
them to be able to park and ride a shuttle in rather than wait 
for----
    Mr. Rigell. Help me to understand your point, so I want to 
give you credit here. You are thinking of the 961 people?
    Ms. Weber. Well, there are 961 spaces, and this is just 
supplemental parking that the shuttle would be accommodating. 
And so I was thinking about those folks that have to wait until 
somebody leaves, until a parking space became available. So I 
thought they might even be looking at it as beneficial, so that 
they didn't have to wait in their car, whether it be hot or 
not, and be able to get to the beach in a sooner manner.
    Mr. Rigell. Sooner than what? Waiting?
    Ms. Weber. Correct, in their car. When there are no spots 
left, people either leave or they wait in their car in a line 
until there is availability.
    Mr. Rigell. You know, to Ms. Payne's point earlier--and I 
have discussed this with the Mayor and others--if we knew that 
the beach parking was going to be preserved and replenished, 
which is, I think, the right plan, I will be happy, Ms. Payne, 
to stand by exactly what I said.
    If we wanted to set aside some parking offsite as a reserve 
to be used only in the reserve, but we had a definitive written 
agreement that the parking was going to be preserved on the 
beach and replenished because it is the most cost-effective 
approach, I would work with you on that.
    Ms. Payne. May I just say that that is--again, from what 
you said in the letter that was in the Beacon from you, you 
seemed to indicate that you supported all of this.
    Mr. Rigell. No.
    Ms. Payne. I was very happy to read this letter because I 
thought things were going to get a lot better.
    Mr. Rigell. Ms. Payne, here is the critical difference 
between, I think, your interpretation of what I said and what I 
mean here, is this, is that I only support the purchase of the 
property offsite if there is an absolute, absolute assurance 
that the current parking, the 900-plus parking spaces that we 
currently have, we have the agreement of the Service that it 
makes sense for a host of reasons to preserve it and to agree 
to replenish it.
    The city has made multiple efforts to reach out here to 
help supplement the funding there. And also, the city itself 
wrote a letter to the Service saying that they would be very 
open to having their own kind of emergency transit system set 
up--correct, Mayor?
    Mr. Tarr. That's correct.
    Mr. Rigell. And to my knowledge, there has been no reply 
whatsoever to that letter.
    So I don't think there is a--in summary, if I may--will the 
Chairman yield just an additional minute?
    Dr. Harris. Yes. We will yield.
    Mr. Rigell. I appreciate the Ranking Member--thank you so 
much. I serve on the House Armed Services Committee, and it is 
very sobering to hear the Chairman, or former Chairman, of the 
Joint Chiefs testify that the greatest threat to this country 
is our national debt and interest on our national debt.
    The Service has failed to make the case, in my view, that 
this need is so urgent, so compelling, that we have to borrow 
from our children and grandchildren to do this. It is 
indisputable in my view that the costs are far greater than 
what you have testified here today, that the expenses of 
operating it have not been truly considered.
    Nor have you considered and factored in the loss of revenue 
to local economy and the families that would be devastated by 
this. I know what it is like to run a small business and to not 
be able--you look at the payroll and you can't make it the next 
week.
    And this indisputably would hurt the company. I think it 
works against the very goals that the President has put forth 
in job creation. So I oppose it today for a host of reasons--
environmental, process, NEPA, cost.
    And I respectfully ask that you just put a full stop to 
this, and work with the city and the good folks and the local 
wisdom of the Town of Chincoteague. And thank you again for 
being here.
    Thank you to all of our guests today. Thank you for 
testifying. I yield back.
    Dr. Harris. Thank you, Congressman Rigell.
    I would like to thank all our witnesses for their valuable 
testimony. I would like to compliment Congressman Rigell for 
his tireless dedication on behalf of his constituents in 
Chincoteague. I do want to ask unanimous consent to have the 
following items added for the record:
    Congressman Rigell's letter to the Director of Fish and 
Wildlife Service;
    A resolution from the Town Council of Chincoteague opposed 
to acquisition of the Maddox family campground;
    A resolution from Accomack County Board of Supervisors on 
the land purchase;
    A letter from Chincoteague Chamber of Commerce;
    Signed contract between Fish and Wildlife Service and Wayne 
Maddox and Mary Lou Birch to buy the Maddox family campground;
    Notice of grant award from the Department of 
Transportation;
    Application for Federal assistance under the Paul Sarbanes 
Transit in the Parks Program, signed by the Fish and Wildlife 
Service;
    Three articles from the Washington Post;
    Damage estimates on Hurricane Irene, a nor'easter, from the 
Fish and Wildlife Service;
    News release from the Fish and Wildlife Service announcing 
the $1.5 million Federal grant from dot; and
    An article in the Beacon written by Congressman Rigell. 
Without objection, so ordered.
    Dr. Harris. Members of the Subcommittee may have additional 
questions for the witnesses, and we ask you to respond to these 
in writing. The hearing record will be open for 10 days to 
receive these responses.
    I want to thank the Members and their staffs for their 
contributions to the hearing.
    If there is no further business, without objection, the 
Subcommittee stands adjourned.
    [Whereupon, at 11:16 a.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

    [A letter from The Honorable E. Scott Rigell to the Director of 
Fish and Wildlife Service follows:]
January 17, 2012

Mr. Dan Ashe
Director
United States Fish & Wildlife Service
4401 N. Fairfax Drive Mailstop 330
Arlington, VA 22203

Dear Director Ashe,

    I was disturbed to receive notification today that the Chincoteague 
National Wildlife Refuge (CNWR) applied for and was awarded a $1.5 
million dollar Federal Transportation Administration grant through the 
Sarbanes Transit in Parks program for a ``Chincoteague Park and Ride 
Facility''. This project is not supported by the local community and is 
blatantly out of order with respect to the Refuge's ongoing 
Comprehensive Conservation Plan (CCP). Moving this project forward 
ahead of the CCP undermines the integrity of the public process 
required by the National Environmental Policy Act (NEPA) and raises a 
number of ethical questions.
    As you may know, the CNWR is home to a very popular and easily 
accessible public beach, which makes Chincoteague one of the most 
visited attractions in the Wildlife Refuge System. The Refuge attracts 
nearly 1.5 million visitors per year, due in no small part to the 
exceptional accessibility of the public beach. The economy of the Town 
of Chincoteague depends heavily on tourist dollars brought in by 
beachgoers. Consequently, the town is very sensitive to potential 
changes within the Refuge.
    More than a year ago, Chincoteague officials made me aware of their 
concerns that Refuge managers plan to use the NEPA mandated fifteen 
year CCP to significantly alter beach access by replacing the current 
parking lot with a transit system which would require beachgoers to 
park off site and take a shuttle to and from the beach. Town officials 
adamantly oppose such a system which would cause a significant decline 
in tourism and economic activity in the town.
    While NEPA requires a public, open, and transparent CCP process, 
town officials have expressed their concern that Refuge managers seem 
intent on installing a transit system without regard for the will of 
the public or the local economy. I have met with Refuge Manager Lou 
Hinds multiple times and each time he has assured me that these 
concerns are not warranted.
    In my view this grant lends credibility to the town's fears that 
Refuge managers have already decided on their plan and that the public 
process is nothing more than a pro forma exercise with a foregone 
conclusion. This makes a mockery of the NEPA process and the intent of 
Congress. To be clear, I see this as a classic example of a 
paternalistic federal government imposing its will without regard for 
the will or economic well being of the people.
    I expect an immediate and clear answer to the following questions:
        1.  My staff and I have been in constant contact with Lou Hinds 
        for the past year. In that time he failed to mention that he 
        had applied for this grant. Why?
        2.  The CNWR is purchasing property for a ``Chincoteague Park 
        and Ride Facility'' while the official CCP is still in its 
        early stages. In light of this, how can anyone be expected to 
        have confidence in the public process? How can we believe 
        serious consideration is being given to draft alternatives that 
        do not call for a public transit system?
        3.  What weight do local economic considerations carry in the 
        CCP process?
        4.  If the beach parking is replaced with a Park and Ride 
        Facility, will Refuge visits decline? If so, what will be the 
        level of decline? How will this impact the Chincoteague 
        economy?
        5.  If the final CCP eliminates all or some of the beach 
        parking, one result will likely be loss of local jobs. How many 
        lost jobs does the FWS consider acceptable?
    Please respond to these questions in detail by Tuesday, January 24, 
2012.
    Anyone who has spent any time in Chincoteague understands 
intuitively that the local economy is inextricably linked to the public 
beach. I take it as a given that any conservation plan which makes the 
beach more difficult to access will drive tourists away causing fewer 
people to partake in all that Chincoteague has to offer. Businesses 
will suffer and jobs will be lost. I will do everything in my capacity 
as a Member of Congress to prevent that from happening.
Yours in Freedom
Scott Rigell
Member of Congress
                                 ______
                                 

    [House Joint Resolution No. 226, 112th Congress follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [A letter submitted for the record by Ted Lewis, President, 
Chincoteague Chamber of Commerce, Chincoteague Island, Virginia, to The 
Honorable Jack Tarr, Mayor, Town of Chincoteague, follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    [Resolution of Accomack County Board of Supervisors approved 
February 15, 2012, submitted for the record follows:]


    The documents listed below have been retained in the Committee=s 
official files:
        1.  Land Purchase Agreement from the U.S. Fish and Wildlife 
        Service
        2.  Maddox, Wayne, Letter to Chairman Fleming submitted for the 
        record
        3.  U.S. Fish and Wildlife Service, Application to the 
        Department of Transportation to Obtain Money from the Paul 
        Sarbanes Transit in the Parks Program submitted for the record
        4.  U.S. Fish and Wildlife Service News Release
        5.  Washington Post, Three articles submitted for the record
        6.  Virginia Beacon newspaper article submitted for the record
                                 ______
                                 
    [Resolution of Town of Chincoteague, Virginia, approved December 5, 
2011, follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               <all>

</pre></body></html>
